<html>
<title> - MAKING THE CONNECTION: CREATING PATHWAYS TO CAREER FOR THE NEXT GENERATION OF WORKERS</title>
<body><pre>[Senate Hearing 110-789]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-789

                MAKING THE CONNECTION: CREATING PATHWAYS
          TO CAREER SUCCESS FOR THE NEXT GENERATION OF WORKERS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING WAYS TO BETTER EDUCATE AND TRAIN THE NEXT GENERATION OF 
              WORKERS TO CREATE PATHWAYS TO CAREER SUCCESS

                               __________

                           NOVEMBER 28, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate




                   U.S. GOVERNMENT PRINTING OFFICE
39-476 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel
           Katherine Brunett McGuire, Minority Staff Director

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     PAT ROBERTS, Kansas
BARACK OBAMA, Illinois               WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                     William Kamela, Staff Director

                  Glee Smith, Minority Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                      WEDNESDAY, NOVEMBER 28, 2007

                                                                   Page
Wakefield, Jill, President, South Seattle Community College......     1
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     2
Stadelman, Kris, CEO, Workforce Development Council of Seattle-
  King County, Seattle, WA.......................................     4
    Prepared statement...........................................     5
Aultman, John, Assistant Superintendent, Career and College 
  Readiness, Office of Superintendent of Public Instruction, 
  Olympia, WA....................................................     9
    Prepared statement...........................................    10
Bender, Rick S., President, Washington State Labor Council, 
  Seattle, WA....................................................    12
    Prepared statement...........................................    13
Allen, David E., Vice President of Market, McKinstry Company, 
  Seattle, WA....................................................    13
    Prepared statement...........................................    14
Veliz, Carlos, CEO, PCSI Design, Bothell, WA.....................    16
Osborn, J.D., In Demand Scholar, Snohomish, WA...................    18
    Prepared statement...........................................    18
Nash, Meisha, Student, New Market Skills Center, Tumwater, WA....    19
Gulliot, Don, Secretary-Treasurer, Washington State Association 
  of Electrical Workers, Seattle, WA.............................    20
Harrison, David, Chair, Washington's Workforce Training and 
  Education Coordinating Board, Olympia, WA......................    21
    Prepared statement...........................................    22
Drewel, Bob, Executive Director, Puget Sound Regional Council, 
  Seattle, WA....................................................    24
    Prepared statement...........................................    26
Seaman, Terry, Vice President, Seidelhuber Iron & Bronze Works, 
  Inc., Seattle, WA..............................................    27
Steinhoff, David, Electrician's Apprentice, Sumner, WA...........    27
    Prepared statement...........................................    28
Mitchell, Charles H., Chancellor, Seattle Community College 
  District, Seattle, WA..........................................    28
    Prepared statement...........................................    30

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Dave Johnson, Executive Secretary, Washington State Building 
      & Construction Trades Council, AFL-CIO.....................    54
    Pat Martinez Johnson, King County Work Training Program......    55
    Bob Markholt, Program Director, Seattle Vocational Institute 
      Pre-Apprenticeship Construction Training (SVI PACT)........    56
    Shepherd Siegel, Seattle Public Schools......................    59
    Linda Tieman, RN, MN, FACE, Executive Director, Washington 
      Center for Nursing.........................................    62
    Letter to Senator Murray from Terry Seaman...................    65

                                 (iii)

  

 
                    MAKING THE CONNECTION: CREATING
                    PATHWAYS TO CAREER FOR THE NEXT
                         GENERATION OF WORKERS

                              ----------                              


                      WEDNESDAY, NOVEMBER 28, 2007

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                       Seattle, WA.
    The subcommittee met, pursuant to notice, at 9:28 a.m. in 
South Seattle Community College, Olympic Hall, Room 120, 
Seattle, Washington, Hon. Patty Murray, chairman of the 
subcommittee, presiding.
    Present: Senator Murray.

STATEMENT OF JILL WAKEFIELD, PRESIDENT, SOUTH SEATTLE COMMUNITY 
                      COLLEGE, SEATTLE, WA

    Ms. Wakefield. I'll stand close to my microphone. Good 
morning. My name is Jill Wakefield, and I serve as president at 
South Seattle Community College. As I have reminded myself, I 
did a quick check--about five times, I've done a quick check to 
make sure that my cell phone is off, so some of you might want 
to do the same thing, just to double check.
    On behalf of our faculty, our staff and students, I'm 
pleased to welcome U.S. Senator Patty Murray to this field 
hearing of the Senate Subcommittee on Employment and Workforce 
Safety, which Senator Murray chairs.
    As we try to tackle the needs in our global economy, 
Senator Murray has been a leader on education and workforce 
issues for Washington State and for the Nation. She's been a 
champion for our students and for preparing them for the jobs 
for the future. She works tirelessly to ensure that the needs 
of our employers are met so that our local economy can continue 
to grow and thrive. I believe that some of this commitment may 
have come from her experience and leadership at Shoreline 
Community College, providing her with great preparation as a 
Washington State Senator and now in the U.S. Senate, where she 
is our senior Senator, serving her third term.
    We're especially honored to host this hearing at South 
Seattle, because we are very active in today's topic of 
creating pathways to career success. In September, 2 months 
ago, we began our first RN program, one that started several 
years ago as a CNA program that led to an LPN program, and now 
we have the third piece, the component of that, the RN program. 
Almost 90 percent of those students are English-language 
learners. This fall, we also started our bachelor of applied 
science degree program in hospitality management, making it 
possible to start in the laundry room and work up to the 
boardroom, building on high school and community college 
culinary, hospitality, and business programs, providing 
pathways to higher-level employment.
    Senator Murray also is a strong supporter of our 
apprenticeship program, where South provides one-third of the 
State's apprenticeship training down at our campus at 
Georgetown. Most recently, we're taking leadership in providing 
green technology for building trades.
    We're so honored that you're here to lead this discussion 
of solutions as we move together to create a bright future for 
our community and our residents. Welcome, Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much.
    Well, with that, this official hearing will be called to 
order. First, Jill, let me thank you very much, for you and 
your tremendous team here at South Seattle Community College, 
for being very gracious hosts for our very first field hearing 
of the Senate Employment and Workplace Safety Subcommittee.
    Let me also thank all of our witnesses who are taking time 
out of busy schedules to be here today to join us in this very 
important discussion on how we can better educate and train a 
new generation of workers.
    Before I begin, I want to give a brief explanation of the 
procedure that we're following here today. This is an official 
U.S. Senate hearing, and, because of that, we have to follow 
the same procedures that we would be using at a hearing that 
would be held in Washington, DC. That means that our testimony 
this morning is limited to the invited witnesses, and that we 
have a court reporter here, who is creating a formal record of 
our proceedings. Unfortunately, what that also means is that we 
are not allowed to take questions or comments from the audience 
during the hearing, but I do want to make sure that everyone 
here has an opportunity to share their view, if they so desire.
    We do have comment forms that are available for all of you, 
if you would like to fill them out. I have a number of staff 
members who are here with me, as well. If you have an 
additional comment or question or some issue that you would 
like to add, please feel free to find one of our staff 
members--there is a desk outside, where you can locate them and 
give them your additional comments. We are interested in all of 
your questions and comments, so please make sure to take the 
time to do that, if you are in the audience today.
    I also want to encourage all of you, if you are interested, 
to visit my official Web site. You can use that to sign up for 
updates on education and other critical issues that we're 
working on in the U.S. Senate. There's a lot of information 
there, and we invite you to look at that Web site and use that 
as an access point, as well.
    Again, I have a number of staff members here, and encourage 
you to contact them afterwards if you would like to provide 
additional information.
    Let me begin this hearing by saying that I have traveled 
intensively around the State, and I've had the opportunity to 
talk to workers, employers, teachers, students and families 
about Washington State's education and workforce needs. I was 
up in Bellingham recently, and I heard from our shipbuilders 
that they are desperate for workers in the shipbuilding 
industry. There are a lot of contracts out there they'd like to 
bid on, the work is there, but they are limited by the fact 
that they don't have enough workers to be able to build those 
ships here in the Puget Sound region.
    I was talking to some leaders in Spokane recently who are 
trying to develop some of their infrastructure, highways and 
bridges, critical to the economic development there. They were 
limited by the fact that they couldn't get enough construction 
workers to actually do those jobs. I'm also hearing a lot about 
an emerging need for skilled workers here for the green jobs 
that are going to be available in the near future. There are a 
wide range of other highly skilled jobs that are in demand all 
across our region. It's become very clear to me from all of 
these experiences that, in order for our State, our economy and 
our communities to remain strong, we have to focus on the 
connections between secondary education, higher education, and 
workforce development. I believe it's time to create a seamless 
system to help all of our students go on to successful careers 
while also meeting the needs for skilled workers here in our 
region. I know this work can't be done individually, but, 
rather, all of us have to come together to help our students 
navigate their way from high school to postsecondary education 
and on to careers. That will help us ensure that our State's 
workforce needs are met, and it will make sure that our 
students are prepared to get the jobs that will be out there in 
the future.
    Today, we are taking the first step by coming together. The 
partnerships I hope we develop here will be the engine that 
drives that effort. In fact, to reinforce the importance of 
building these partnerships, I decided to break away from the 
traditional format for a congressional hearing that would have 
panels in front of us with individual witness statements and 
formalities. Instead, what I decided to do was have this more 
informal roundtable format that I think will provide us all 
with an opportunity to listen, learn and to share the 
tremendous wealth of experience that we have here today.
    Right now, the United States is struggling to address the 
gap that exists between the need for a highly skilled workforce 
and the shortage of highly skilled workers. Our Nation is also 
struggling to make sure that students stay in school and 
graduate prepared to enter college and the workforce. Today 
here in Washington State, there are about 87,000 job 
vacancies--87,000 job vacancies--but we have over 145,000 
people who are unemployed and looking for work. We also know 
that in past generations workers often only needed a high 
school education to secure a good-paying job. Today, we know 
that 70 percent of the new jobs being created require a college 
education, and that percentage is likely to increase and rise 
in the future as the United States continues to transition from 
a manufacturing- to an information-based economy. Each of us 
recognizes that in the global economy, the path to economic 
success depends on education. Currently, though, many of our 
students are struggling. For every 100 ninth-grade students in 
the State of Washington, only 70 of them will graduate from 
high school in 4 years. About half of all African-American and 
Hispanic ninth-graders leave school without a diploma. Half. 
Almost 10 percent of Washington State teens between 16 and 19 
are not enrolled in school and are not working. Most new jobs 
and almost all family-wage jobs require at least some education 
and training beyond high school, even at the entry level. 
Students need both academic learning and career skills in order 
to succeed in our global economy.
    Thomas Friedman has described this new global economic 
connectedness as a flattened world. This new, flat, competitive 
landscape requires that our students here in Washington State 
and our youth across the country are more highly educated than 
our youth from the past, and not only must our young people be 
more knowledgeable when they start their work lives, they must 
have the capability to continue learning throughout their life. 
Undoubtedly workforce and education issues are interconnected. 
I believe, as I said earlier, it will take partnerships, like 
those we're going to hear about today, involving all of our 
major stakeholders to find solutions to Washington's education 
and workforce development needs.
    As chairman of the Senate Subcommittee on Employment and 
Workplace Safety, and as a former teacher, parent, and now a 
grandparent, I continue to be concerned about how we best 
address this critical issue. I know we have to provide options 
to students, options that raise the expectations for their 
learning and support them in achieving progress. That's why 
we're here today: to learn about the options that are serving 
our students here in Washington State, to hear from those 
involved in providing academic and occupational learning to our 
students, to highlight the economic demands in our State, to 
explore the needs in our workforce, and to further the effort 
to provide our young people with multiple pathways to success.
    We have an exceptional group of experts here today, and I 
know each one of them brings a very unique perspective to the 
table, and I look forward to hearing the contributions of each 
and every one of you. Thank you, again, for participating in 
this morning's hearing.
    At this time, I'm going to turn to our distinguished 
panelists and ask each one of them to introduce themselves and 
to provide some introductory remarks.
    We're going to start on my far right. Kris, if you want to 
introduce yourself, make your remarks, then we will continue 
around the table. I'll have some additional questions, and I 
hope our discussion will follow.
    So, Kris, why don't you introduce yourself and begin.

STATEMENT OF KRIS STADELMAN, CEO, WORKFORCE DEVELOPMENT COUNCIL 
              OF SEATTLE-KING COUNTY, SEATTLE, WA

    Ms. Stadelman. Good morning. I'm Kris Stadelman, and I'm 
the CEO of the Workforce Development Council for Seattle and 
King County.
    The first thing I want to do is thank the Senator. I 
appreciate the invitation today. I'm greatly honored to be 
here. I so appreciate you having a hearing on this key topic 
right now. I know that, as Jill Wakefield said earlier, that 
our Senator, Senator Murray, is a leader in this field, but I 
just want to reiterate that, among my peers, the Workforce 
Investment Board of Directors from around the country, I'm 
envied because we have Senator Murray here in our State, and I 
want to personally thank her for the millions of dollars in 
Department of Labor grant funding that she has assisted us in 
receiving; most recently, a $3-million wire grant for the State 
of Washington, and, just a couple of weeks ago, $2 million for 
King County to serve youth offenders. I greatly appreciate 
that. Thank you.
    [Applause.]
    Ms. Stadelman. The Workforce Development Council is a 
private, nonprofit, mostly federally funded. What we do, we 
have a Board of Directors that scans the environment and looks 
at the gap between labor supply and demand, and tries to work 
with education, organized labor, and employers to fill that 
gap. One of our main functions is to prepare Washington State's 
youth for careers. We need to do that in two ways. We need to 
ensure we have a skilled workforce to meet the needs of 
employers, and we need to find ways of ensuring that youth have 
access to a path for economic security and family self-
sufficiency.
    At the Board, we address these goals by partnering with the 
private sector to bring youth into contact with the world of 
work and to promising careers. I want to say that I think, 
along the path, somehow, of looking at the new world and how we 
need a skilled workforce to be globally competitive, we focused 
on those high-end jobs, those B.A. degrees and master's degrees 
and Ph.D.s at the high end for research and development, and 
maybe we've lost sight of the fact that career and technical 
education is also key to economic success, also key to having a 
strong middle class. I think in many of our high schools, we 
have seen the path diverge to an either/or--either career and 
technical skills or academic skills and a path to college--and 
that the investment and the intention has been focused on the 
path to academic skills and college, really, to the detriment 
of career and technical education.
    At the WDC, we think that everyone needs ``both/and,'' not 
``either/or''--everyone needs ``both/and'' academic skills and 
career and technical education. We think that what is most 
important for those of us in this field--and I want to 
compliment my community college partners, who have been a great 
asset in helping us with the needs of both low-income adults 
and youth in finding careers. We care about family economic 
self-sufficiency, and we believe that all of us at this table, 
all of us working on preparation for our workforce, need to 
keep our eye on that prize. For youth, the path to family 
economic self-sufficiency and economic security starts early, 
it starts with career and technical education, and it starts 
with summer jobs.
    Thank you, Senator.
    Senator Murray. Thank you.
    [The prepared statement of Ms. Stadelman follows:]
                  Prepared Statement of Kris Stadelman
    Chairman Murray and Honorable members of the subcommittee: Thank 
you for inviting me to participate in today's hearing. My name is Kris 
Stadelman and I am CEO of the Workforce Development Council of Seattle-
King County. I am honored and grateful for this opportunity to talk 
with you about one of our time's most vital issues: the preparation of 
Washington State's youth for careers.
    This preparation has two goals: to ensure a skilled workforce to 
meet the needs of employers, and to ensure that today's young people 
can become happy, self-sufficient adults. The first goal is all the 
more urgent because of the demographic tidal wave of Baby Boomers who 
are set to retire in the next decade. The second goal--self-sufficiency 
for today's young people--is also subject to a shifting economy. More 
specialized work requires more training, often including college, to 
put good-paying jobs within reach.
    As the local Workforce Investment Board, the WDC of Seattle-King 
County addresses both goals by partnering with the private sector to 
bring youth into contact with the world of work and promising careers.
    In 2005, the WDC published a report called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b62544e4f537b6c544950">[email&#160;protected]</a> that called 
attention to the serious decline in employment for teens and young 
adults. The previous summer, the national teen employment rate was the 
lowest in 57 years. African-American and other youth of color are far 
less likely to have work opportunities.
    Why, when we need to focus on the problem of high-school dropouts, 
does this matter? Shouldn't youth be focusing on education and college 
instead of work?
    The answer is no--not instead of work. Youth should be focusing on 
education because of work, and in addition to work. When we show them 
the connection and allow them to learn in the context of the real 
world, they are less likely to drop out of high school. They are more 
likely to pursue further education and training. They learn social and 
work skills that cannot be taught in school. And they are given both 
the tools and the inspiration to forge their own futures.
    But if, in the name of academic rigor, we cut young people off from 
work experience and career education, we are failing them--especially 
at-risk youth who do not have role models or connections to help them 
chart a path.
    In Seattle-King County, we at the WDC have seen the results of 
work-based learning opportunities, career exploration, internships, 
work experience and other employment services. We have linked these 
important services to high-demand occupations and industries that offer 
career paths ending in high wages. We have linked them to academic 
support for staying in school and credit retrieval for returning to 
school, as well as GED preparation for dropouts. And we have linked 
them to case management and other services to address the barriers of 
at-risk youth--mental health, chemical dependency, homelessness, basic-
skills deficiencies, disabilities including learning disabilities, and 
criminal activity/court involvement.
                         sector-focused efforts
    In Seattle-King County, according to the State's 2007 job vacancy 
survey of employers, 73 percent of vacancies paid a median wage of $10 
an hour or less--dismal in the face of our area's high cost of living. 
The top seven occupations (including laborers, cashiers and security 
guards) had an average median wage of $8.81.
    But right behind them came Registered Nurses, with an average wage 
of $32 an hour, and Carpenters, at an average of $16 an hour. This 
dichotomy illustrates the challenge of workforce development in an area 
where both our economy and our individual prosperity depends on the 
ability of our education and training systems to meet the needs of 
industry for high skills.
    As a result of intensive research into the sectors in our region, 
the WDC of Seattle-King County selected five that provide living-wage 
jobs, opportunities for advancement and partnerships with employers. 
These five are health care, life sciences/biotechnology, construction, 
manufacturing, and information technology. We brought together 
industry, higher education, labor, K-12 and community leaders in each 
one to discuss the most critical workforce issues.
    This work has allowed us to address both supply and demand in each 
industry: we understand better how to connect employers to the skills 
and workers they need, and we understand better how to open pathways 
for workers--and youth--to higher-skilled, higher-paying jobs.
    The following provides a few examples of our work to connect low-
income and at-risk youth to high-demand sectors in our region, using 
Workforce Investment Act youth dollars and leveraged funding from our 
partners.
                              health care
    This vital industry, with multiple well-paying jobs for nurses and 
technicians, is experiencing critical staff shortages which will be 
exacerbated as more of the health-care workforce retires. Since 2003, 
the WDC has led a series of partnerships with hospitals, colleges, and 
public schools that start students on career paths in health care.
    These programs, with the full commitment of the private sector, 
linked young people in and out of our Workforce Investment Act youth 
programs directly to health-care certificate programs at local 
community/technical colleges and to work-based learning opportunities 
in hospitals. Youth could take prerequisite and training courses while 
still in high school and be assured of earning an LPN or even higher 
certificate within a year of graduation.
    One young person, Shenise Gordon, took advantage of several WDC 
programs. When she was just 14, she began exploring careers and getting 
real-life work experience at the Veterans Affairs Medical Center. As a 
sophomore in high school, she began taking courses at Renton Technical 
College through another WDC partnership, and passed the State-certified 
nursing assistant exam in her junior year. Shenise graduated last June 
with 4 years of nursing experience under her belt--and her RN degree 
less than a year away.
    The newest WDC program to address health careers for youth is a 
public-private partnership that includes the Washington State Hospital 
Association, the city of Seattle, several local community colleges, and 
faculty/staff of Seattle public high schools. The 19 students earned 
high-school credits for courses such as Fundamentals of Health Care, 
CPR, Orientation to College and CNA coursework and are taking the CNA 
exam as a gateway to a wide range of nursing and other health care 
professions. Most are enrolled in both high-school and college courses, 
earning credits for both.
                      life sciences/biotechnology
    In 2005, the WDC partnered with the Puget Sound Regional Council, 
Prosperity Partnership, and the Washington Biotechnology and Biomedical 
Association to bring together a panel of 30 leaders in the life 
sciences industry, the education system, employers, local government 
and economic and workforce development.
    Recognizing the importance of drawing young people into the field 
to ensure a pipeline of trained workers for these highly technical 
jobs, the WDC worked with the panel partners to offer a 6-day workshop 
to local science teachers to help them understand the latest research 
and technology--in hopes they would use the information in the 
classroom to inspire students.
    The panel also worked to develop a dynamic Web site on life-
sciences careers that can be used by youth and others who are 
interested in entering this growing field.
                              construction
    The construction industry has been a leading source of job growth 
in Washington State over the last decade. Over 80 percent of all jobs 
in the industry and 67 percent of entry-level jobs pay a living wage.
    In YouthBuild, funded by the WDC and other partners, dropout youth 
alternate between 2 weeks of work and 2 weeks of school, constructing a 
house for a family in need as they earn wages, build work experience, 
complete high school, and transition into a job or further education/
training.
    A WDC-led partnership for Pre-Apprenticeship Construction Training 
(PACT) helps prepare students at Seattle Vocational Institute--most of 
whom are young adults--to enter union apprenticeships in the 
construction trades. The two-quarter program covers foundation skills 
for construction as well as ``soft skills'' such as work ethic and 
positive attitude. At the end of the program, PACT helps to place 
students in union apprenticeships.
                         information technology
    Information technology jobs and careers are spread throughout 
almost all industry sectors, making IT skills as fundamental as 
literacy for well-paying careers. The WDC has incorporated IT into our 
youth employment services in a variety of ways.
    In addition, we help to fund the Digital Bridge Technology Academy, 
which provides technology training to low-income, at-risk youth. This 
collaboration of partner organizations and agencies is for students 
between the ages of 16 to 21 who have dropped out of high school and 
are currently working to earn a high school diploma or G.E.D. Youth 
explore technology and careers through hands-on classes, workshops, 
guest speakers, job shadow opportunities, field trips, service 
learning, and internships. Students also install and maintain computer 
labs at community centers throughout Seattle as a way of both putting 
their learning into practice and giving back to their community.
                             manufacturing
    Manufacturing remains a significant industry in terms of volume of 
jobs, quality of jobs and wages, encompassing welding and machinist 
jobs that pay up to $34 an hour through electrical engineering at $50 
an hour. The WDC has long-established partnerships with local industry 
groups and with the nationwide Dream It, Do It campaign to interest and 
train youth in manufacturing careers.
    In addition to these high-demand sector efforts, the WDC targets 
specific barriers that keep young people from succeeding in school and 
charting their futures. These include homelessness. The WDC helped to 
establish the Barista Training and Education Program, which trains 
homeless youth to be baristas--an occupation always in high demand in 
Seattle-King County. Youth in the barista program find skills to earn 
money today as well as a springboard, through case management, housing 
and on-site services, to further education and training that lead them 
away from hopelessness and poverty.
    These barriers also include criminal involvement and court 
adjudication. King County's Juvenile Court has been a strong supporter 
and partner of WDC employment/education programs for their 
effectiveness with this population. Just a few weeks ago, the WDC 
learned that we have been selected for a $2 million Department of Labor 
grant that will enable us to create two new career and education 
centers to focus on youth offenders. We have you, Senator Murray, to 
thank for your assistance in bringing this extremely important funding 
to our community. It will allow us to serve 200 youth offenders with 
intensive support both for education and employment goals--a model that 
has proven highly effective in stopping the cycle of criminal 
involvement.
    All these pathways and partnerships have been possible because of 
Federal funding for youth employment programs--all Workforce Investment 
Act youth funds, except for the new youth offender grant. Once again, 
we thank you, Senator Murray, for being a champion of WIA youth 
funding. You have fought hard for this community against the tide of 
severe funding cuts over the past few years.
    But in the context of these budget cuts, I would like to emphasize 
to the subcommittee that despite all of our work to bring career-
focused services and work experience to at-risk youth, we know it is 
only a drop in the bucket when we consider the thousands of youth who 
are dropping out of our education system without work skills. These 
innovative programs are extremely staff intensive and serve only a few 
dozen young people, compared to the hundred who could thrive with these 
opportunities. Without Federal investment, highly effective programs 
such as PACT and Health Careers for Youth will remain pilot projects 
that eventually fade, along with the vital employer and education 
partnerships that made them a success. Continued funding is needed to 
take them to scale and perpetuate them.
    In addition, if we have hopes of affecting the dropout rate, our 
legislators and communities must support career and technical education 
in schools. High-stakes testing and budget constraints are leading 
schools to shortchange CTE--programs that integrate academic coursework 
with career awareness and exploration, occupational training, and work-
based learning. In many school districts, CTE programs are still seen 
as educational ghettoes (with all that implies for youth of color) for 
low-achieving students whose teachers have given up on them. Our 
experience, and the research, shows that the conflict between college 
and career training is a false one. In Washington State, those who 
complete a CTE program are expected to earn almost $60,000 more by the 
time they are 65 than those who have not participated in CTE. These 
students understand not only what they are asked to learn in school, 
but why they are learning it. We must find a way to support career and 
technical education alongside rigorous academics.
    I also urge you as legislators to support Federal funding for 
summer job programs, which have suffered greatly in the past decade and 
experienced a one-third decline just since 2001. Because of these cuts, 
thousands of low-income, at-risk youth in Washington State no longer 
have the option of spending the valuable summer months gaining work 
experience. We need to bring summer job programs back into our 
communities--not just for the experience itself, but for the better 
outcomes it brings during the 9 months of the school year.
    In Washington State, we have some important assets. We have 
employers and industry associations who are eager to work with 
education and workforce development partners to ensure that the next 
generation is a skilled workforce. We have excellent community and 
technical colleges that are responsive to the needs of both students 
and employers. We, in workforce, development have many successful 
models of partnerships among all these stakeholders, and a wealth of 
experience in making them work. With adequate investment and shared 
goals with the K-12 education system, we can address both the high-
school dropout issue and the critical need for future skilled workers.
    But if we continue to consider workforce issues and education 
issues separately, we will not be successful in addressing either.
    Once again, thank you for allowing me to participate today and for 
your consideration.

    Senator Murray. Mr. Aultman.

STATEMENT OF JOHN AULTMAN, ASSISTANT SUPERINTENDENT, CAREER AND 
     COLLEGE READINESS, OFFICE OF SUPERINTENDENT OF PUBLIC 
                    INSTRUCTION, OLYMPIA, WA

    Mr. Aultman. Thank you, Senator.
    My name is John Aultman. I'm an assistant superintendent 
for career and college readiness at the Superintendent of 
Public Instruction's Office. On Dr. Bergeson's behalf, I'd like 
to say thank you for inviting K-12 to the table to be part of 
this discussion.
    Today, I'd just like to talk about a few strong examples 
that make career and technical ed, that segue from what Ms. 
Stadelman was talking about, into reality. Successful career 
and technical ed programs need a few key elements. They need 
strong business and industry partnerships, strong--or the 
programs need to be aligned with the economic strategies of the 
State of Washington. What's the economic engine, and how are 
the programs in the high schools aligned with those? They need 
strong academic and technical applications. So, you have both. 
It's not the either/or. The programs need to be personalized, 
meaningful, connected to the student, employer, and industry 
demand that they might be looking toward pursuing.
    In the last piece of this is the transition of the students 
to postsecondary, and that postsecondary includes anything that 
is post-high school--a 1-year certificate program, 2-year 
transfer, a technical degree, or a 4-year baccalaureate. I 
think the key piece there is, our workforce right now has a 10-
year gap, and that 10-year gap is the average age of the 
individuals in the community and technical colleges. If we can 
close that gap, the economic strategies will be empowering the 
individuals as they go forward. Imagine a high school diploma 1 
week, and I think you're going to hear today about an 
individual that had a high--or has a high school diploma 1 
week, a registered apprentice the next week. Imagine a hospital 
taking individuals in and giving them 40 hours worth of 
shadowing experiences, watching ER, diagnostic imaging, every 
aspect from open-heart surgery throughout, and the hospitals 
being the strong partner. Imagine the in-demand scholars, that 
Senator Murray has sponsored in the past, to provide those 
incentives to go on to the postsecondary.
    The last piece I will leave here is that the State of 
Washington, this last year, invested over $100 million to re-
engage career and technical ed, building skill centers in the 
State, funding activities around expanding the FTE, and also 
putting middle-level career and technical ed--back into the 
course offerings.
    With that, I'll wait for the questions. Thank you.
    [The prepared statement of Mr. Aultman follows:]
                   Prepared Statement of John Aultman
    Honorable Chairman Senator Murray and members of the committee, 
thank you for inviting me to share examples of success, challenges, and 
opportunities of K-12 career and technical education (CTE) programs in 
Washington State.
    Successful career and technical education programs include the 
following elements:

    1. Strong business and industry partnerships.
    2. Programs aligned with the economic strategies of Washington 
State.
    3. Strong academic and technical application.
    4. Personalized, meaningful, connected to student, employer, and 
industry demand.
    5. Transition of students to postsecondary training, 
apprenticeship, and workforce.
               strong business and industry partnerships
    The business and industry partners view strong program offerings as 
the ``Talent Pool'' for their future economic viability. One example is 
the Washington State Apprenticeship Council's commitment to form 
partnerships with local school districts and construction trades 
programs across Washington. New Market Skills Center in Tumwater has 
established such a strong relationship with the local Joint 
Apprenticeship Training Councils that the students who meet certain 
criteria are directly offered and enrolled in apprenticeship training 
programs after graduation. ``High school diploma 1 day, and registered 
apprentice the next day.'' These graduates are earning over $19.00 per 
hour with benefits and retirement. By utilizing the In Demand Scholars 
program for required tool and safety equipment they are able to walk 
onto the job site ready for ``the original 4-year degree.''
    Another example of a strong partnership is the commitment the 
DigiPen Institute of Technology has to continuing growth and 
partnership support with schools in the State of Washington by 
providing computer science course offerings. DigiPen Institute of 
Technology has seen the direct benefits of partnering this last year as 
the first graduate of New Market Skills Center High School computer 
science program completed his Bachelors of Science degree in computer 
engineering this past spring. The individual received the first 
Presidential Scholarship from the DigiPen Institute of Technology and 
was one of the first graduates that had to make the tough decision of 
``Which company should I choose? '' because he had multiple offers 
starting at over $50,000-plus bonuses.
    I could site multiple other examples of strong partnerships with 
health care, pre-engineering, veterinary sciences, emergency services, 
and power generation.
     programs aligned with economic strategies of washington state
    This past year Governor Gregoire, Washington State Legislature, and 
Superintendent Bergeson invested over $100 million in career and 
technical education programs. The funding to build new skills centers 
and enhance comprehensive CTE programs needs to align with high demand 
and high wage occupations. The opportunity we have today to enhance 
programs and align opportunities for students does not happen often and 
we need to keep the ``future economic engine of Washington State'' 
moving forward.
               strong academic and technical application
    The recognition of strong academic content imbedded with technical 
skill attainment allows programs to succeed and provide such success 
stories. The career and technical core curriculum can have many 
outcomes such as high school graduation requirements, college credit 
through Tech Prep, industry certification, and Advance Placement (AP) 
College Board testing. A few examples of multiple outcomes include 
Environmental Studies, Commercial Graphic Design, Professional Medical 
Careers, Clinical and Scientific Investigation (CSI), Pre Vet 
Technology, Emergency Medical Services, and Computer Science programs 
at New Market Skills Center. Currently, procedures are in place for 
students to earn Tech Prep credit, Advanced Placement and industry 
certifications while participating in CTE programs. The Washington 
State legislature has directed School Districts to adopt policy for 
academic recognition within CTE programs. The Legislature required a 
taskforce to make recommendations on models that districts could use 
for cross crediting. Procedures will be developed by the task force to 
help individual departments, schools, and school districts to grant 
academic credit for imbedded content.
     personalized, meaningful, and connected to student, employer, 
                          and industry demand
    The ``Rigor, Relevance, and Relationship'' comes alive for students 
when they have investments in their future. Scott Bond, CEO of 
Providence Saint Peter Hospital in Olympia, stated to his Department 
Managers ``We have an opportunity and an obligation'' to help grow our 
future workforce. Over the past 5 years St. Peter Hospital has allowed 
students from the Professional Medical Careers program to observe 40 
hours of clinical applications within the hospital departments. The 
students enter the program knowing of two careers, doctor or nurse, and 
not about the other 50 medical and patient care careers available. 
After the clinical rotations, students have observed open heart 
surgeries, emergency room, obstetrics, physical therapy, diagnostic 
imaging, administration, lab activities, acute care and other 
departments. When the students return to the classroom they re-organize 
their schedules to fit in more math and science courses before 
graduation. Most health care students do not have the opportunity to 
observe professionals, working in their careers, until the second or 
third year of their college program.
    This example reinforces the need to ask all students three 
questions:

    1. Who am I?
    2. What can I be?
    3. How do I get there?

    These are the core questions within the Navigation 101 guidance 
plan. The examples are clear that when students connect the high school 
experience with real life examples they become engaged!
    Career and technical education programs have strong impacts on 
dropout prevention, intervention, and retrieval programs. The dropout 
intervention program (DPI) pilot at New Market has retained and 
retrieved over 200 students in the past 3 years. The key to the program 
is personalized attention to assist the students to advocate for 
themselves. This has a direct financial impact to future employment 
opportunities. One student said it best, ``I returned (to school) so I 
could learn the skills to earn a living.'' He did take the CTE program 
of his choice and the additional academic requirements to earn his 
diploma last June.
  transition of students to post secondary training, apprenticeship, 
                             and workforce
    Career and technical education programs must continue alignment 
with postsecondary and apprenticeship programs to decrease the ``10-
year'' gap that now exists. The average age in Community and Technical 
Colleges is 27 years old. The individual and collective earning power 
is dramatically decreased with this gap in advanced training. The 
recent construction of the New Market Life Sciences building included 
five construction apprentices. Two of these apprentices were recent 
graduates of the New Market construction trades program and the other 
three apprentices were 28, 34, and 52 years old. All five apprentices 
started within 1 month of each other and at the end of the construction 
project the 34- and 52-year-old apprentices had quit.
    The common theme all educators must be conveying is ``are you 
college ready? '' with college being defined as any education post high 
school. This would include technical certificate programs, 2 year, 4 
year, and apprenticeship programs. New Market administered the 
AccuplacerTM community and technical college and apprenticeship 
placement test to all juniors and seniors allowing them to see if they 
were college ready. The results provided students the opportunity to 
refresh basic skills while still in high school and for others it built 
confidence that they were college material. South Puget Sound Community 
College agreed to accept the testing results for placement at the 
college. When Tech Prep college credit, AccuplacerTM scores, online 
unified community college application, 13th-year plan, and scholarships 
are added together, many of the obstacles and excuses such as, ``In a 
few years, I need to work, or I don't know how to apply'' are removed.
                          future opportunities
    <bullet> Align and provide incentives (start up funds) for high 
demand occupation programs;
    <bullet> Expand middle school CTE exploratory programs--integrated 
math, science, and technology;
    <bullet> In Demand Scholars Program;
    <bullet> In Demand CTE Instructor Certification Scholarships;
    <bullet> Integrated Academic Articulation--Statewide Cross Credit 
Guidance;
    <bullet> Assist CTE programs to become Advance Placement (AP) 
Course Approved;
    <bullet> Connecting K-12 CTE with the State Board for Community and 
Technical Colleges (SBCTC) Centers of Excellence;
    <bullet> Secondary Integrated Basic Education Skills Programs--ESL 
Populations;
    <bullet> Middle and Secondary CTE Summer School--Math, Science, and 
Technology using CTE as the delivery model; and
    <bullet> Early Learning Linkages--State STARS Certification.

    Career and technical education programs can and will provide an 
instructional delivery model for high demand, high wage occupations. 
CTE program offerings are vital to students, business and industry, and 
the economic strength of Washington State.

STATEMENT OF RICK S. BENDER, PRESIDENT, WASHINGTON STATE LABOR 
                      COUNCIL, SEATTLE, WA

    Mr. Bender. I'm Rick Bender. I'm president of the 
Washington State Labor Council. We represent about 400,000 
union members here in the State of Washington.
    Senator, I want to thank you for the focus on this 
population. So often, we hear about the need for more 
baccalaureates, or higher, in terms of our economy here in the 
State of Washington, but very few people talk about that 75 
percent who don't get a baccalaureate, but may get a AA degree 
or go to an apprenticeship or some other type of technical 
program. There is a real need by employers for these type of 
skilled workers, and there's no question, we are facing a 
shortage. We have about 12,000 apprentices right now in our 
classes across the State, and these are some of the largest 
we've ever had. But we're going to need to maintain this level 
for the next 8 to 10 years, because, as you well know, we're 
facing the retirement of a lot of baby-boomers right now in 
this State and across the country. So, this is something that 
we have to deal with.
    But I'm proud of the building trades, because they've been 
spearheading a number of areas, in terms of legislation, to 
help fill these gaps. They, for example, have, passed, several 
years ago, Apprenticeship Opportunity Program, which sets a 
threshold of 15 percent on our public works projects for 
apprentices. This should provide more opportunities for young 
people, for people of color, and women, to come into our 
construction trades. We think this is a major step forward. The 
building trades have spearheaded Running Start to the trades, 
where you can come out of high school and be ready to go right 
into the trades when you graduate from high school.
    Then, of course we have the Helmets to Hardhats that was 
spearheaded by the building trades--which is the Iraq veterans 
coming out from the war, getting direct access to our 
apprenticeship programs. The building trades have been 
spearheading a lot of programs to provide more opportunities 
for a whole lot of folks to come into these skilled trades.
    But we've still got a lot of work ahead. There is one area 
that I have a real concern, and there's a lot of discussion and 
debate talking about the need for another year of mathematics 
to graduate from high school, which we support. But it can't be 
just strictly an academic pathway. We think there has to be 
some type of career, technical education equivalent, some type 
of applied mathematics that people can go into, other than the 
academic route. We think this is extremely important, and we 
hope that we'll give young people more than just one pathway, 
which is just academic, but give them a pathway in other areas, 
as well.
    Thank you, Senator.
    [The prepared statement of Mr. Bender follows:]
                  Prepared Statement of Rick S. Bender
    Good morning, Madam Chairwoman, and thank you for inviting me to 
appear before you at this Field Hearing. My Name is Rick Bender and I 
am the President of the Washington State Labor Council, AFL-CIO. Our 
organization represents approximately 400,000 working women and men in 
Washington State. I have been a member of Washington State's Workforce 
Board for more than 10 years, working to address the advancement of 
workers into family wage jobs with benefits and retirement security; by 
and large those are union jobs in Washington State. Washington State 
ranks fifth in the country in union density with one out of five 
workers being part of organized labor.
    Recent surveys of Washington employers state that currently 45 
percent of the jobs in demand require 1 to less than 4 years of 
training--mid-skill jobs. Those jobs generally pay $16.00 to $30.00 per 
hour, are in construction trades, technician level skills of many 
occupations, health sciences, etc. The trend to 2015 is that 43 percent 
of those mid-skill jobs will still be in demand.
    Here in Washington, we have worked in coalition to create Running 
Start to the Trades as a pathway for high school students to achieve 
credit with an apprenticeship while they are still in high school; much 
like Running Start which provides community college credit while in 
high school.
    We worked to achieve legislation that requires 15 percent 
utilization of apprentices on State prevailing wage jobs, so that all 
public infrastructure investment also provides an investment in 
training the future workforce. We would be very pleased if you would 
consider championing similar legislation for Federal Davis Bacon 
projects so that training was an integral component of our public 
Federal investment, Senator.
    We have a shortage in the skilled construction trades at present. 
For years we had approximately 9,000 enrolled apprentices in any given 
year. Currently we have more than 12,000 enrolled apprentices and our 
apprenticeship training centers are bursting at the seams. There will 
be a continued need to train apprentices for the next 8 to 10 years at 
current or higher rates, not only for the work that is already sited 
and bid, but to replace the retiring construction workforce which is 
the oldest in American history. But our high school faculty and career 
counselors don't know about apprenticeship or about the demand for mid-
skill occupations.
    We have begun to address that in Washington by working with the K-
12 system and employment training providers and business and labor to 
expand Navigation 101, which is a career exploration curriculum for 
high school. Unfortunately, it is not required nor is it available in 
all school districts in our State. This tool has done a great deal to 
give real information and choices to high school students that are 
about aptitudes and real jobs that do not require a baccalaureate 
route.
    We are very concerned right now that Career and Technical Education 
(CTE) and our Skill Centers are at risk. We are working to ensure that 
additional math requirements for high school graduation (third year 
math) are not required to be academic. We are looking for acceptance of 
third year math that is equivalent, but can be an applied course that 
demonstrates job relevance to students. Your assistance in working with 
educators, employers and labor to ensure that more students graduate 
and join the labor market would be greatly appreciated.
    Thank you for the opportunity to make these introductory remarks, 
and I look forward to your questions.

    STATEMENT OF DAVID E. ALLEN, VICE PRESIDENT OF MARKET, 
                 McKINSTRY COMPANY, SEATTLE, WA

    Mr. Allen. Thank you, Senator.
    I'm David Allen. My brother and I own McKinstry Company, a 
1,500-person design/build/operate/maintain firm, working in the 
Pacific Northwest. We're nearing our 50th birthday, and a lot 
has changed in those 50 years, including my age.
    [Laughter.]
    I'm not going to spend much time talking about the academic 
side of the battle, until the questions come up, because I 
think I need to make some comments, as an employer, that's 
really important, particularly to some of the young people in 
the audience and for the record.
    I agree with what Rick said, that McKinstry hires from 
apprenticeship programs. We are signatory to seven labor union 
agreements. We have some 1,000 building trades workers doing 
everything imaginable, from designing, building, operating, 
maintaining, fixing, energy auditing, facilities all over the 
West. We also have a lot of the 4-year college-degreed people: 
in engineering, in purchasing, in marketing, and all that kind 
of stuff. But, I think, from an employer's standpoint is, we 
are kind of a microcosm of the problem, because we need sharp 
young people at all the places around McKinstry.
    The Senator's office asked me to address clean technology. 
I'm the chairman of the board of Enterprise Seattle, the 
Economic Development Council of Seattle-King County, so I get a 
pretty cool picture of what's happening in our region by 
economic cluster. I'm also the HELP foreman and co-chair of the 
newly established Washington Clean Tech Alliance, which, as I 
mentioned to the Senator's staff, that in my written testimony, 
it may very well be the next industrial revolution. By ``clean 
technology,'' I mean energy efficiency, renewables, alternate 
energy, biomass, water conservation, remediation, doing the 
right thing to the Earth. That industry--we think we're in the 
top two to four in North America in the fight for our brand as 
a place for clean technology to prosper.
    With that said, unlike a lot of our last century's 
industries, the clean technology industry is highly solution- 
and idea-based, so it's going to require, not only the 
sciences, which are obvious, but it's also going to require 
people that believe in it, people that understand it. It's more 
about creating an idea, implementing an idea, taking care of an 
idea. There's going to be jobs from young people that run green 
buildings, to engineers that design them, we're working on two 
plants right now. The reason we were awarded the project is 
that no one owns the space. One's a biodiesel plant award in 
Washington, and one's a tire recycling plant. The owners didn't 
really have any history of who builds that kind of stuff, 
because it's sort of new. Both facilities have asked us to 
operate it when they're done. Also something new that comes out 
of the clean technology.
    In closing, and I'm anxious for the questions, because 
there's a lot to say. I think we look to the community 
colleges, the vocational--and as I told the Senator earlier, 
we're in trouble. We need to get into middle schools and high 
schools and these community colleges and give you guys a better 
picture of what the opportunities are out there, and where the 
careers are. With that, I'll close, so we can get to the 
questions.
    Thank you, Senator.
    [The prepared statement of Mr. Allen follows:]
                  Prepared Statement of David E. Allen
    During the past several years, as a result of the perfect storm of 
rising oil prices, energy dynamics and increased awareness of climate 
change our State has seen an explosion of investment in research, 
products and construction of all that is ``Clean Technology.'' Like 
many other regions in the Nation Washington State has built an early 
reputation for its leadership in Clean Technology and in fostering 
growth of this ``new'' economic sector. Clean Technology with its many 
``clean the planet'' aspects clearly represents an opportunity to 
become the next industrial revolution.
    Nationally, investment in the Clean Tech industry has grown 78 
percent in the past year and nearly 400 percent in the past 5 years 
(source: American Venture Magazine). Clean Tech is now the third 
largest venture investment category, with projections boasting some $19 
billion in investments by 2010 that is expected to create more than 
500,000 new jobs. The most notable and talked about subsectors, 
renewable and alternative energy, are growing exponentially but those 
are just part of the story. Energy efficiency, recycling, bio-synergy 
(waste to power), sustainable design, product re-engineering and 
remediation technologies are all creating a buzz.
    Washington State possesses many of the critical elements required 
to be successful in Clean Technology cluster. It has natural resources 
second to none. It has a citizenry that is known for its stewardship of 
the environment. Washington State is regularly recognized for its 
entrepreneurial and innovative workforce. And those are the attributes 
that will attract and grow firms in this sector; a sector that will 
make a significant impact on the Washington State economy and job 
creation for many years to come.
                      jobs, skills, opportunities
    One of the most compelling aspects of the emerging Clean Tech 
industry is that it brings with it a wide array of jobs/careers across 
many disciplines. Unlike its predecessor ``industrial'' industries in 
the 20th century, Clean Tech will require a much broader workforce 
representing myriad skill sets and educational backgrounds. Because of 
the innovative nature of this cluster the field of science will play a 
key role. Chemistry, physics and biology have made their presence known 
already and several other science needs are emerging. Engineering is a 
clear driver of Clean Technology with mechanical, electrical, 
automotive, ceramic, geosciences, thermal and civil engineering some of 
the leaders.
    On the ``execution'' side of Clean Tech positions in the 
``executive suite'' will be in high demand as well. Business and 
financial management is critical here, as many firms will be of start-
up nature and most facing an incredible growth profile. Manufacturing, 
production and operations positions will be needed and will have to 
adapt to new processes and industrial paradigms. Skilled crafts and 
career positions will flourish as well. Construction trades will also 
be in high demand and in fact are already experiencing upswings due to 
these new technologies. In addition many technical crafts will be 
emerging in and around the operation of plants and the delivery of 
services etc.
    The most exciting news here is wages and benefits. Unlike much of 
the workforce in traditional industrial type jobs, the Clean Tech 
sector will have primarily high-wage or family-wage jobs with 21st 
century benefits! In the past few years virtually every Clean Tech type 
firm we have met, worked with or contracted to have primarily high wage 
positions. The emerging Clean Tech industry is dependent on and 
committed to working with all interested parties to enhance worker 
training and education. Because of the fact that many of the processes 
and applications will be new, training for these positions is a 
necessity rather than a luxury. We anticipate partnerships with trade 
unions, apprenticeship programs, workforce development organizations, 
community colleges, 4-year institutions and local government agencies 
will be required to meet the needs of the future.
                        regional impacts abound
    In Washington State there exist some 400 Clean Tech companies with 
more than 5,000 jobs at the present time. Many of these firms are 
growing extremely fast. My firm, McKinstry has added more than 250 jobs 
directly attributed to our energy and Clean Tech work in just 3 years. 
Many others in biofuels, alternate energy and sustainable design have 
even steeper job growth! In fact, in a recent study Washington State 
was reported to be a leader in both alternate fuels and green building 
strategies. Our region is currently collaborating with other western 
States and provinces on fuel cell research and the ``hydrogen highway'' 
as well as greenhouse gas reduction programs. Also of note, our unique 
position as a gateway to the Pacific Rim is making Clean Tech a growth 
export industry.
    We are rapidly becoming a center for innovation and new technology, 
thanks to the University of Washington, Washington State University and 
PNNL/Battelle, among others. As of this report, new projects in the 
pipeline represent hundreds of millions of dollars of new investment 
and thousands of jobs. Research by enterpriseSeattle (formerly EDC of 
Seattle and King Co.) and its Clean Technology Cluster team, indicate 
however, the growth and activity with new ventures is so robust that we 
are already depleting our current skilled workforce.
                              wcta is born
    In 2002 the Puget Sound Regional Council embarked on creating a 
regional plan to ensure the economic vitality of our region (and 
State). Coined the Prosperity Partnership, it developed a regional work 
plan that now serves as a great road map for many aspects of our 
growth. Its final report identified five economic clusters that will 
drive our economy for many years and set forth to bolster the 
infrastructure of each of those clusters (educational needs, workforce, 
economic development strategies, etc.) The first four were obvious 
drivers: aerospace, life sciences, trade and logistics, and IT/
software. The fifth, Clean Technology was the ``new kid on the block.'' 
Because it was a new idea that needed to be congealed a small group of 
public/private volunteers worked for several months and decided to 
launch a vertical trade organization called the Washington Clean 
Technology Alliance. In February 2007 WCTA hosted a kickoff event which 
yielded 35 charter members that represent virtually every element of 
the industry. From alternate energy to sustainability, recycling to 
clean manufacturing and from public representative to service firms, we 
have it all!
    The mission of the WCTA is to help strengthen the Clean Tech Sector 
by providing information, networking opportunities, and advocacy. 
Additionally we established an overarching goal to create a Washington 
State clean technology ``Brand'' to compete globally in this sector. We 
have been active with monthly networking sessions, member promotion, 
educational panels and sponsorships and will be representing the State 
at GLOBE 08, with a trade show delegation. GLOBE is one of the world's 
largest and most revered clean technology/environmental conference held 
every other year in Vancouver, B.C.

         STATEMENT OF CARLOS VELIZ, CEO, PCSI DESIGN, 
                          BOTHELL, WA

    Mr. Veliz. Thank you, Senator, for the invite today. My 
name is Carlos Veliz, the CEO of a company called PCSI Design, 
located in Bothell, Washington. I'm also on the board of 
trustees at Everett Community College, and also the chair for 
Snohomish County for the Washington State Hispanic Chamber of 
Commerce, Bienvenido a los que hablan Espanol.
    There's a lot of things that are here today and that we're 
going to be reviewing, and I'm going to try to touch on them as 
best I can.
    My topic today, or the area that I was asked, was 
``building bridges.'' Mine was building bridges between the 
corporate small business and the educational system. Being that 
I'm on the board of trustees, you always walk around with your 
trustee hat on, and you're always seeing what's going on in the 
community. But one thing that our company has been doing over 
the past 6 years is speaking at the middle school level, and 
not in the sense of pounding the mindset that, ``You have to go 
to a university, you have to get your 4-year degree, you have 
to be involved in the areas that are going to take you to 
either a free scholarship or what have you.'' What we try to do 
in our mentoring program that is engaging with our students is 
find out where their wants are, find out where their wants are 
today. What is their passion? What we're losing, I believe, in 
our school system today--whether it's K-12, whether it's high 
school or the college--is that we're forgetting to do some 
touchpoint strategies with people's passion, because the kids 
today aren't the kids of yesterday, and there's a different 
model that we have today and, they're shaking their heads, 
``Yes,'' you know, going, ``Yes, he understands,'' but there's 
a different model today, and we have to find a way to build 
that bridge between what the model is today of these students 
that do have a lot of passion for a certain career. I'm almost 
positive that most of them don't just want a job. I'm sure that 
they're looking for something that they can build on and be 
proud and be productive into our community.
    I love living here in Washington State. One of the things 
that we do here at our company, at PCSI Design, is that we go 
out of the State to bring the work back, because we talk about, 
``Wow, the work's leaving.'' As I speak of some of these 
things, you'll see that there's a pattern that talks about 
building the bridge between the corporations, small business, 
and education. Well, if we can go back in the educational 
system and try to implement some of those career mindset, going 
into the passion of these students and doing that, then we're 
going to create those more small businesses. If we can get the 
small businesses to go mentor and go back into the schools, 
because they have the closer ties, then the corporations will 
feed the small businesses. We have a lot of bandwidth in our 
communities here, and I just don't think that we finish the 
job. I think that we start a lot of things, and we just don't 
follow through. These are some of the things that I hope we can 
get some Q&A here today.
    But I'll close off with it--because there's a lot of things 
I want to talk about--but I'll close it off with this. Here's a 
question. And don't answer it, please, because I'll answer it 
for you.
    [Laughter.]
    Do you know who designed the black box for the Xbox for 
Microsoft, the original black box? Do you know who designed the 
snow skis for the Apache helicopters and for the Black Hawk 
helicopters--which is a snow--it's snow ski kits? Do you know 
who designed the Lamont fitness spin bike and/or recumbent 
bike? Now, you're probably going, ``Well, it must have been the 
companies that you just mentioned.'' Talk about struggling, and 
talk about going through the paths that some of these folks 
mentioned, my company, PCSI Design, is the company that 
designed those products for those companies. We're the only 
product design company in the State of Washington that is 
certified 8A, small business, and MBE. Now, you're saying, 
``That's great.'' Well, no, it's not great. We are, in 2007, 
going to 2008, and why in the world am I the only one? We have 
a lot of path to pave here, and I hope that we can start 
building those bridges sooner than later.
    Thank you, Senator.
    Senator Murray. Very good. Before Judy speaks, let me just 
say that we have three students here with us today who have--
because I felt it was really important that we hear from 
business, we hear from education, we hear from labor leaders, 
but we also hear directly from young people who have gone 
through the process, or are going through the process. Because 
we can talk a lot about policies and resources at the top, but, 
if it doesn't translate and work for the generation that is the 
recipient of it, it isn't going to work. I felt it was very 
important to hear their voices.
    I especially want to thank J.D., who you're going to hear 
from in a minute, Meisha, who's to my left, as well, and, down 
the row here, David, in just a few minutes. Thank you very 
much.
    J.D.

   STATEMENT OF J.D. OSBORN, IN DEMAND SCHOLAR, SNOHOMISH, WA

    Mr. Osborn. Thank you, Senator.
    I'm really happy to share my perspective on this whole 
issue. I'm 20--like she said, I'm J.D. Osborn, 20 years old. I 
graduated in 2006 from Snohomish High School, and I was one of 
the recipients of the In Demand Scholar, which is why I'm here 
today.
    Well, first off, I started my first internship when I 
turned 18. I started in a machine manufacturing place as a 
machinist, and then, from there I went on to being a CAD 
technician for two other companies, and now I'm working for 
Carlos, here, at PCSI Design as an intern. I'm in sophomore 
status at Everett Community College right now, and I plan on 
transferring to Western Washington University after this year.
    The things that worked for me most, as far as education, 
is--I've always enjoyed the classes that restricted rules. I've 
always felt like rules have boxed me in and limited my 
creativity. A lot of the classes that I've liked are very 
relevant to what's going on today, like green technology, the 
green jobs you mentioned earlier. That stuff 's all very 
interesting to me. To have that in an educational setting, kind 
of, let's you lose focus on the grade aspect of education and, 
kind of, gain an aspect on the importance and relevance of the 
subject.
    Senator Murray. OK, thank you.
    [The prepared statement of Mr. Osborn follows:]
                   Prepared Statement of J.D. Osborn
    The In Demand Scholarship that I received my senior year in high 
school acted as an incentive for me to continue my education. Although 
I would have most likely continued my education either way, the 
scholarship provided more than enough reason to continue on.
    As a kid I always enjoyed building things and creating but it 
wasn't until my junior year in high school that I actually got involved 
in the wonderful world of manufacturing. I started interning in the 
field at a young age, I believe 17, because of the program I was 
involved in while in high school. Each internship acted as a stepping 
stone to the next. I went from a machinist at Aerospace Manufacturing 
Technologies to a CAD technician for Accra Manufacturing and then QPM 
Aerospace and now I work at PCSI Design as a Mechanical Designer. I 
have been working for PCSI Design for a little over a year now. It has 
been the best job of my life so far!
    I graduated in 2006 from Snohomish High School and I'm currently in 
sophomore status at Everett Community College. I'm getting my 
prerequisites out of the way in the most efficient manner. I plan on 
transferring to Western Washington University sometime next year. They 
offer a very good engineering technology program where I can both learn 
theory and apply it to real world situations. I will be gaining an 
engineering degree in Plastics with an emphasis in Vehicle Design. WWU 
just started offering this specific degree this year which is great 
because before I couldn't decide which one to choose, plastics or 
vehicle design. The reason I chose this specific field of engineering 
is based on my work experience. Plastics and light weight materials 
such as resin-infused composites are the wave of the future because 
they are lighter and stronger. I predict that the demand in this field 
will only grow through my years of education ensuring a job upon 
graduation. Dedicating my life to solving future problems addressing 
issues like global warming is very self satisfying to me and I hope to 
make a positive difference every day of my life for the rest of my 
life.
    Some of the most enjoyable classes I have taken and learn most 
successfully in were the classes with very little structure and 
addressed real world situations frequently. They spoke deeper to me 
than textbooks or worksheets which allowed me to lose focus on the 
grade and gain focus on the material. Let me give a couple examples of 
great classes I have taken and why. I will talk about them in 
chronological order.
    The first class was Science Fiction or commonly known as Scifi. 
Everyday I came to this class I left with something positive that I 
would take to my lunch table and share with my friends. A lot of it was 
based on the future and the cutting edge of technology. Everyday we 
engaged in class discussions and most of the time we would get way off 
track but we would all be awake, engaged and learning.
    The second class I want to talk about is my CAD and Precision 
Machining class. The technology in this class was very advanced and 
blows any engineering class that I've taken at Everett Community 
College out of the water. The teacher had interest in every single 
student's success. Personally, he acted as my counselor and advisor and 
if it were not for him I would not be here today. He pushed me beyond 
what was required for the class and showed me how the things I was 
doing applied to the real world. I remain in very close contact with 
this teacher today.
    Onto college, I took three English classes from the same teacher. 
In these classes we learned all about semiotics, the specific reason to 
why things are the way they are and advertising/marketing techniques. I 
have hated my English classes for as long as I could remember but these 
three quarters were some of the best classes I have ever taken. I never 
knew that I would actually use the knowledge from my English classes as 
a fundamental basis for my engineering studies. My research paper was 
on a new building that just opened at Everett Community College. My 
perspective on architecture before and then after is something I hold 
priceless in my thoughts everyday. It was at this point that I learned 
the importance of education.
    The last class I would like to address is my speech class. The 
instructor in this class takes a different approach to public speaking. 
There are basically four types of speeches and she teaches this by 
letting the students pick their own topics, giving advice to make your 
speech great and limiting the rules and specifications, allowing you to 
be as creative as you'd like.
    In conclusion, I would like to close with my vision of what I feel 
programs should be like for future students in my position. The four 
examples I have presented have a few things in common which I feel 
should be the foundation of all structure in all education situations. 
The elements are bringing relevance to every class meeting, limiting 
rules to allow more creativity, and having teachers that take interest 
in the student's success. I hope you can find my perspective as both 
relevant and helpful to solving this issue with the lack of pathways to 
career success for my generation and the next!
    Thank you.

    Senator Murray. Meisha.

 STATEMENT OF MEISHA NASH, STUDENT, NEW MARKET SKILLS CENTER, 
                          TUMWATER, WA

    Ms. Nash. My name is Meisha Nash, and I'm currently a New 
Market Skills Center student, and I'm here today to tell you a 
little about myself and the different experiences I've had in 
and out of school systems.
    Originally I'm from North Carolina. In elementary school, I 
received straight A's. I loved school and the teachers. 
Basically, it was all I had.
    When I went to high school, there were so many people that 
I became a face in a crowd so large, the teachers barely had 
time to notice me. With this drastic setting and curriculum 
change, I was overwhelmed. I developed severe depression and 
eventually turned to drugs. I never had the support of a stable 
family life. So, without the school setting that I loved, I was 
ready to give up.
    I continued to struggle in school while maintaining a job 
that supported my increasing drug addiction. I eventually came 
to the conclusion that I did not want to be going in the 
direction I was going in, and I did not want drug use to be my 
future occupation, so I entered myself into a rehab program and 
got my drug addiction under control. After that, I continued to 
struggle in school and was far behind my fellow classmates. I 
figured it would be much easier to get my GED, and I was under 
the impression that it would be equivalent to getting a high 
school diploma, so, when I was 16, I dropped out of school and, 
within 2 weeks, received my GED. For the next 2 years, I worked 
as hard as I could. While staying with family members, I ended 
up supporting them, as well as myself. I knew I wanted to get 
back into school, but did not have the resources or the means 
to do so.
    In January 2006, I was given the opportunity to come to 
Washington and stay with my aunt and uncle for a few months 
break from the chaos I was living in. A few weeks after I 
arrived, I read an article in the newspaper about a young 
mother who had earned her GED and returned to school to get her 
diploma. This sounded interesting, so I decided to look into 
the program. I found out that, not only could I get my diploma, 
I could also earn college credits at the same time, at no cost. 
This was exactly what I needed, and, within the next week, I 
decided to make my stay here permanent and began attending 
school.
    I had no idea if I could actually support myself here, but 
I knew I would give my best effort. It would have been 
impossible if I had not had the help and support of so many 
caring people that I met in my school and community. They have 
done so much to help me with my financial situation, such as 
transportation and food vouchers, to make it easier to 
concentrate on my education. But what I am most appreciative of 
is the moral support they have given me, telling me that I am 
worth it and I deserve the opportunity to do the best I can in 
life. For that, I may never thank them enough.
    With this newfound confidence and skills and abilities I 
have learned, I will go much further in life. I will be getting 
my high school diploma this June, and I'm in my third quarter 
at South Puget Sound Community College. I was recently hired by 
Sodexho at New Market, as a cashier for the culinary arts 
program.
    While attending this program, I have found what I love to 
do. I plan to get a degree in culinary arts and business, and 
one day I plan to own my own restaurant. I know I'm a long way 
from achieving my dreams, but I now know that it is possible.
    Thank you.
    Senator Murray. That's great. Thank you very much, Meisha.
    Sorry, you get to follow that.
    [Laughter.]
    Mr. Gulliot. I beg your pardon?
    Senator Murray. I'm sorry, you get to follow Meisha.
    [Laughter.]

STATEMENT OF DON GULLIOT, SECRETARY-TREASURER, WASHINGTON STATE 
         ASSOCIATION OF ELECTRICAL WORKERS, SEATTLE, WA

    Mr. Gulliot. Good morning, Senator Murray and members of 
the committee. Thank you for the opportunity today to address 
you.
    My name is Don Gulliot. I am the business manager of Local 
Union 77 with the IBEW. We represent the employees that provide 
you power from the utilities in our State. Thank you for 
inviting us to comment this morning.
    Local 77 represents 6,800 utility and construction workers 
in our State. This includes investor-owned public utilities, 
municipalities, REAs, and Federal and nuclear power plants. We 
currently have approximately 68 collective bargain agreements 
in the State. Today, what I'd like to speak to, which is a 
common thread, is the aging workforce and what we are doing, 
and what we are not doing, about it.
    The other thing is regional training centers, what our 
union is doing, and what our international union is doing, and 
what we're doing with the junior colleges here in the State of 
Washington; workplace safety, which goes along with training--
on-the-job training; and a concern about the use of foreign 
workers and the reducing of carbon emissions.
    That's what I'm prepared to speak to today, and that 
concludes my presentation, at this time.
    Senator Murray. OK.

  STATEMENT OF DAVID HARRISON, CHAIR, WASHINGTON'S WORKFORCE 
     TRAINING AND EDUCATION COORDINATING BOARD, OLYMPIA, WA

    Mr. Harrison. Senator, I'm David Harrison. As you know, I 
am chair of the State Workforce Training and Education 
Coordinating Board, which is a partnership of education, labor, 
government, and business to help skill Washington for a high-
skill, high-wage economy. You already know that, from what 
you've heard already, that we face huge challenges in this 
State, and we're addressing those challenges, all the more so 
because of what you're doing in the other Washington, and your 
relentlessness on these matters. So, next time you're at 38,000 
feet over North Dakota, being served the mystery snack, know 
that we appreciate it.
    [Laughter.]
    Today, November 28, is the day in our history where 
knowledge, skills, and information are most critical, not just 
to our human opportunity, but to our economic vitality. Until 
tomorrow. This is, as you well know, a central strategy for our 
State, to prepare for the future. In that context, both you and 
the Governor have expected us to get it, and get it done, 
primarily by emphasizing and responding to the central matter, 
which is the skill gap, the gap between what employers need and 
workers have. The existence of such a gap, as you know, makes 
employers less competitive, and makes it less likely that youth 
entering the workforce will receive a sustainable wage.
    The annual employer survey by the Workforce Board shows 
that we're meeting only about 70 percent of the demand for 
people with 1 to 2 years of postsecondary training. This is 
numerically, the biggest single skill gap in our State, just 
that particular element of the skill gap translates to around 
25,000 people short. And as your obsession, to the extent we 
can put young people on a pathway, and keep them on the 
pathway, we can and will close that gap. We have numerous 
initiatives in progress to close the gap. My written testimony 
calls out high-demand programs of study at the community and 
technical colleges, opportunity grant program, increasing 
support of skill centers, and, as you know, Navigation One-on-
One, which is an all new, all school counseling model that 
helps put youth on a pathway.
    It would not be whining, I don't believe, to say that we 
are not always seeing our Federal partner with us in these 
matters. As you try and sharpen the focus of the national 
government on the young person's transition to work, we do have 
further schemes and dreams, and I want to quickly call out 
three.
    The Board and its partners are intent on using the 
reauthorized Perkins Act to create and sharpen clear programs 
of study. We worked hard on Perkins. The resources behind 
Perkins are a big deal, because those dollars, as John would 
attest, go toward better curriculum and better articulation 
between programs of study at the high school level and what 
happens at the community and technical college. As you know, 
that pathway, to be a pathway, has to be clear.
    Second, I wanted to call out the fact that, as you well 
know, we're running on fumes with regard to WIA youth dollars, 
and WIA youth direction; so, as you work on the future of the 
Workforce Investment Act or in other venues, whatever you can 
do to sharpen the sense of pathways and the resources and 
approaches that the national government takes to these matters 
would be treasured, as we, at the same time, in the State, I 
think, are looking for--and the Governor's looking for--
continued improvements to how career and technical education 
works, and how it connects to the community and technical 
colleges. If you can help make a WIA that connects to those 
challenges a little bit more sharply, that would be a wonderful 
thing.
    There are considerable WIA youth resources, including 
discretionary resources we use now for dropout prevention in 
really exciting ways.
    And then, last, a big dream, and that is more support and 
incentivization of work-based learning for young people. As you 
know, there are really exciting models in and outside of the 
skill centers as to how employers connect, not just with 
existing workers and the older worker or the skilled worker, 
but the young person on the path. We can keep the path broader, 
well lighted, keep the ditches further away from the path if 
employers are there with us. There are some great examples--
robotics in Mukilteo, healthcare in Yakima, all the very 
exciting construction industry work that's going on in schools 
in Spokane in all these cases. Whatever you can do to connect 
those schemes to the weight the Federal Government moves the 
employers would be a wonderful thing.
    So, just those few schemes and dreams. Thank you, again, 
for all your work.
    Senator Murray. Thank you.
    [The prepared statement of Mr. Harrison follows:]
                  Prepared Statement of David Harrison
    Honorable Chairman Senator Murray and members of the committee, 
thank you for the opportunity to speak and present written remarks to 
the Employment and Workplace Safety Subcommittee of the Health, 
Education, Labor, and Pensions Committee. Senator Murray, your 
leadership on workforce development issues has been a beacon to the 
Washington workforce community. We appreciate your commitment to 
helping students prepare for careers and meeting the workforce needs of 
industry. We believe that enhancing career pathways for students is an 
indispensable strategy both to help students succeed and to help 
companies compete. As promising as are the efforts we will all discuss 
today, they represent only a beginning of a job that must be done.
    A vital role of Washington's Workforce Training and Education 
Coordinating Board (Workforce Board) is to identify the skill and 
training needs of businesses in Washington State and the supply of 
trained individuals provided by educational institutions and to advance 
strategies to close the gap between the two. Our analysis based on 
projected job openings and employer surveys have consistently shown 
that the greatest gap in meeting employer demand is for mid-level 
postsecondary training--training that is more than 1 year but less than 
4 years in length. Such training is provided by our community and 
technical colleges, apprenticeship programs, career and technical 
education programs in comprehensive high schools and ``skills centers'' 
(local school district collaboratives that focus on CTE preparatory 
coursework). Since 1998, this system has only been meeting from 66 
percent to 77 percent of projected employer demand annually for persons 
completing these mid-level programs. In order to close this skill gap 
at the mid-level by 2010, we would need 26,000 more community and 
technical college student FTEs than were enrolled in 2005.
    Under Governor Gregoire's leadership, we have been redoubling the 
efforts to close the gap. At the community and technical college level, 
we have addressed ``high employer demand programs of study'' which are 
undergraduate certificate or degree programs in which the number of 
students prepared for employment per year is substantially less than 
the number of projected job openings in that field--statewide, or in a 
sub-state region. In Washington, these high demand programs of study 
include accounting, aircraft mechanics and technicians, auto diesel 
mechanics, construction trades, education, healthcare practitioners, 
science technology, transportation, and installation, maintenance and 
repair.
    In addition, we have sought to expand access to this outstanding 
community and technical college system. A major success toward 
accomplishing this objective was an appropriation of $25 million in the 
2007-2009 State-operating budget to expand the ``Opportunity Grant 
Program'' which provides wrap-around support services and financial aid 
to low-income adults for 1 year of training in mid-level high demand 
programs of study. This will enable low-income students to reach the 
``tipping point'' of education required for economic self-sufficiency.
    The initiatives to confront the skill shortage at the earlier steps 
of the pathway are equally critical, as too many high school students 
face a situation where no path is clear to them. In ``High Skills, High 
Wages,'' Washington's 2006 Strategic Plan for Workforce Development, 
the Board has established the following system objective:

          ``There should be secondary CTE programs throughout the K-12 
        system that enable students to explore career pathways and 
        complete preparatory coursework that matches their aspirations. 
        The career pathways should be articulated with postsecondary 
        education and training and result in industry certification.''

    The recently re-authorized Perkins Act is a tool in furthering this 
objective. The Carl D. Perkins Career and Technical Education 
Improvement Act of 2006 provided for the development and implementation 
of career and technical education (CTE) ``programs of study'' that 
include a nonduplicative progression of courses that align secondary 
education with postsecondary education. The Workforce Board and its 
K-12 and community and technical college partners are in the process of 
planning the implementation of the Perkins Act, including designing a 
process for development and approval of CTE programs of study.
    The focus of the No Child Left Behind Act, on the other hand, has 
presented obstacles to furthering career pathways. Many local school 
districts are assigning more coursework centered on test performances, 
causing a reduction in skills courses in some districts. In response, 
the Workforce Board is working on a number of initiatives with its 
partners to ensure career pathways are available to students throughout 
the State, including the following:

    <bullet> We completed a study and recommendations for the 2007 
legislative session on improving access to ``skills centers'' and many 
of those recommendations are being implemented;
    <bullet> In preparation for the upcoming legislative session, we 
are working with the Office of the Superintendent of Public Instruction 
(OSPI) to secure funding for implementing ``high demand'' CTE programs 
of study and the development of articulation agreements between 
secondary and postsecondary programs that provide a program of 
sequenced courses and ensure all students have access to dual 
enrollment options;
    <bullet> The Board is part of a legislatively mandated advisory 
committee to the Legislature that is examining how CTE programs can 
guarantee rigorous academic content and thus be recognized as meeting 
academic course equivalencies; and
    <bullet> The State Legislature has implemented a grant program that 
enables local school districts to work with apprenticeship councils on 
aligning curriculum to provide direct or preferential entry for 
students who complete pre-apprenticeship programs.

    While we are making important progress in this State in building 
multiple career pathways for students, much remains to be done. Tech 
Prep programs have developed a number of articulation agreements 
between individual high schools and individual community colleges. The 
skills centers in the State have been increasing their course alignment 
with postsecondary opportunities as well--New Market and Sno-Isle 
Skills Centers have been leaders in this effort. However, more 
resources need to be allocated to the development of model curriculum 
and accompanying articulation agreements that can be replicated 
statewide. This is a time-intensive process that involves bringing 
business, labor, and K-12 and postsecondary faculty together to 
establish standards and develop curriculum frameworks. While some 
States (California and South Carolina) have been successful in securing 
significant State resources for this work, additional monies allocated 
through the Perkins Act would go a long way to making sure these 
opportunities exist throughout the State.
    An important part of career pathways for students is work-based 
learning. We need to do more to involve business and labor and provide 
opportunities for students to learn at workplaces. This can take the 
form of co-ops, internships, pre-apprenticeship programs and other 
strategies. Some examples in this State include the mentoring by 
Electroimpact in the robotics program in the Mukilteo School District 
and the ``Youth Works'' internships provided by Memorial Hospital for a 
number of high school students in Yakima County. Much more needs to be 
done in this respect. Congress should explore providing incentives to 
business and other mechanisms to increase work-based learning 
opportunities for students.
    It is critical that we continue to acknowledge the vital role that 
career and technical education plays in providing opportunities for 
secondary students to achieve academic success and prepare for careers. 
We know that secondary students must be engaged and motivated to learn. 
Career and technical education provides the relevance for many students 
needed for their engagement, as well as an opportunity to learn 
academics in a ``hands-on'' manner. Career and technical education 
programs of study options are a necessary tool for ensuring all 
students learn the skills they need to be successful in today's 
economy.

         STATEMENT OF BOB DREWEL, EXECUTIVE DIRECTOR, 
           PUGET SOUND REGIONAL COUNCIL, SEATTLE, WA

    Mr. Drewel. Well, thank you, Madam Chair, for this 
opportunity. My name is Bob Drewel, and I am the executive 
director of the Puget Sound Regional Council. I just want to 
take a moment to join the chorus of thank-yous to you, and I do 
this with appreciation and admiration and affection for your 
boundless energy and passion and care for the citizens of this 
State and this Nation, and we're very grateful for your 
leadership.
    The Puget Sound Regional Council is the home to a coalition 
known as the Prosperity Partnership, and our goal is to develop 
100,000 new jobs in this region by the year 2010. I might add 
that two of the co-chairs of this organization, Mr. Bender and 
Dr. Mitchell, are on the panel here this morning, so I'll try 
and be as useful as possible when you have two of your bosses 
in the room.
    Fundamental to our effort is the linking of the education 
system with the demands of the workforce. This is particularly 
important in a State like Washington, which is, by many 
measures, the best educated in the United States. Again, the 
size and the scope of this program is not only in this State, 
but in the Nation. Washington has more engineers per capita, 
and ranks in the top 10 in life sciences, recent graduates in 
science and engineering, and computer scientists. Seattle was 
recently named as the best-educated city in America, with over 
half of its adults holding a bachelor's degree. Of course, this 
means for our citizens to be competitive for a job in this 
State, you must be educated beyond high school.
    Research by the Partnership for Learning on behalf of the 
College and Work-Ready Agenda, tells us that 77 percent of the 
jobs in our State that pay a family wage require some college, 
and over half of the family wage jobs require at least a 
bachelor's degree.
    However, in our State, like many States in the Nation, we 
are simply not providing our students enough opportunities to 
participate in this economy. Even though we lead America here 
in this region and in the State in high-tech job categories 
that I described earlier, we are 37th in production, in the 50 
States, in conferring of bachelor's degrees, and 38th in 
conferring degrees in science and engineering.
    Consider the following: between now and the year 2012, just 
under one-half of the job openings in Washington that require a 
bachelor's degree will come in six fields: computer science and 
engineering, life sciences, research, secondary teachers, 
health sciences, and nursing. In 2005, our colleges and 
universities were only able to provide 14 percent of their 
graduates these degrees. That's not a match that will carry us 
into the future for the economy. It's just not simply a problem 
for our colleges and universities, all too often, students are 
leaving high schools not prepared for the study in fields--
that's been mentioned on a number of occasions--to earn these 
degrees, and basically not prepared for college or other 
advanced learning. According to the report by the Washington 
State Board for Community and Technical Colleges, 52 percent of 
incoming students to our community and technical colleges must 
take pre-college remedial courses--to earn their college 
degrees--during their careers. This number is as high as 63 
percent for African-American students and 67 percent for Latino 
students.
    However, Prosperity Partnership and its 250 member 
organization believe that we see a solution. First, we must 
invest in the capacity of our colleges and universities to 
provide access to high-quality bachelor's degrees, and we have 
identified the need for 10,000 additional bachelor's degrees by 
the year 2020. I suspect the same could be said for many of the 
States in our Nation.
    Second, we must concentrate our increased degree production 
in the fields where we know the jobs are. Consider computer 
scientists. The State of Washington estimates that each year 
between now and 2012, 3,900 jobs will come open in our State 
requiring a computer science degree. Currently, fewer than 700 
such degrees are conferred across the State each year. We must 
simply invest in those degrees so that the skill sets that 
you've heard described up to this point, and the excitement 
that Meisha feels about her future, we can deliver the 
opportunities.
    Third, we must inform students, parents, teachers, 
counselors, and, frankly, anybody who will listen to us, about 
the opportunities that I just mentioned.
    In summary, the economic reality is that we are simply not 
providing our students with the education they need to be 
successful in this economy. Through a series of steps--and 
there is more to be done than the three issues that I've just 
chatted about--we can meet this challenge, but it requires 
rethinking how we deliver these skills to our students and what 
the appropriate roles of government are.
    I look forward to the opportunity to respond to questions.
    [The prepared statement of Mr. Drewel follows:]
                    Prepared Statement of Bob Drewel
    Thank you, Madam Chair, for the opportunity to testify before this 
committee today. I am Bob Drewel, Executive Director of the Puget Sound 
Regional Council. My agency is the home of a coalition known as the 
Prosperity Partnership, which is an effort to secure long-term economic 
prosperity and grow 100,000 new jobs in this region by the year 2010.
    Fundamental to that effort is the linking of our education system 
with the demands of the workforce. This is particularly important in a 
State like Washington, which is by many measures the best educated 
State in the United States. Washington has more engineers per capita 
than any State, and ranks in the top 10 in life scientists, recent 
graduates in science in engineering and computer scientists per capita. 
Seattle was recently named the best-educated big city in America, with 
over half of its adults holding at least a bachelor's degree.
    Of course this means that in order to be competitive for a job in 
this State, you must be educated beyond high school. Research by the 
Partnership for Learning, on behalf of the College and Work Ready 
Agenda, tells us that 77 percent of the jobs in our State that pay a 
family wage require some college, and over half of the family wage jobs 
require at least a bachelor's degree.
    However, in our State--like in many other States around the 
country--we simply are not providing our students enough opportunities 
to participate in this economy. Even though we lead America in the high 
tech job categories I described earlier, Washington is 37th among the 
50 States in per capita conferring of bachelor's degrees, and 38th in 
conferring degrees in science and engineering.
    Consider the following information: between now and 2012, just 
under half of the job openings in Washington that require a bachelor's 
degree will come in six fields: computer science, engineering, life 
sciences research, secondary teachers, health technicians and nursing. 
In 2005, only 14 percent of the graduates from Washington's colleges 
and universities earned a degree in one of these fields.
    Let me say that again . . . half of the job openings that require 
degrees will come in these fields, but only 14 percent of our students 
are receiving the appropriate education to fill one of those jobs. The 
natural consequence of course is that we are importing people--either 
from other States or from around the world--to fill the jobs that our 
students cannot.
    This is not simply a problem for our colleges and universities, 
however. Our students all too often are not leaving high school 
prepared to study the fields that are necessary to earn these degrees, 
and are often simply not prepared for college. According to a report by 
the Washington State Board for Community and Technical Colleges, 52 
percent of incoming students to our community and technical colleges 
must take pre-college remedial courses during their college careers. 
This number is as high as 63 percent for African-American students and 
67 percent for Latino students.
    However, the Prosperity Partnership sees a solution. First, we must 
invest in the capacity in our colleges and universities to dramatically 
expand access to high-quality bachelor's degrees. We have identified a 
need of 10,000 additional annual bachelor's degrees by 2020, and I 
suspect the same could be said of many States around the country.
    Second, we must concentrate our increased degree production in the 
fields we know the jobs are. Consider computer scientist: the State of 
Washington estimates that each year between now and 2012, 3,990 jobs 
will come open in our State requiring a computer science degree. 
Currently fewer than 700 such degrees are conferred across the State 
each year. We must invest in these degrees.
    Third, we must inform students, parents, teachers, counselors and 
anyone else who will listen about the opportunities our increasingly 
technology-driven economy presents, the fields of study that allow 
participation in that economy, and the classes students should be 
taking in middle and high school to study these topics. An emphasis 
must be placed on allowing students to experience the exciting fields 
growing in our economy--not just telling them about it.
    This is an excellent opportunity for the Federal Government's 
participation. I am reminded of the effort our Nation put into science 
and engineering following the launch of Sputnik, and I am heartened by 
the success the national government in Ireland has had in helping its 
citizens understand the opportunities before them, and how to reach 
their true potential. I look forward to discussing this in more detail 
during the roundtable.
    In summary, Madam Chair, the economic reality is that we are simply 
not providing our students with the education they need to be 
successful in this economy. Through a series of steps--and there is 
more to be done than the three I have laid out above--we can meet this 
challenge, but it requires rethinking how we deliver these skills to 
our students and what the appropriate roles of our governments are.
    I would be pleased to answer any questions and look forward to our 
discussion.

 STATEMENT OF TERRY SEAMAN, VICE PRESIDENT, SEIDELHUBER IRON & 
                BRONZE WORKS, INC., SEATTLE, WA

    Mr. Seaman. Thank you, Senator.
    My name is Terry Seaman. My wife, Heidi, and I own and 
operate Seidelhuber Iron Works, a 101-year-old steel 
fabrication plant started by Heidi's grandfather in 1906. We 
employ about two dozen people, including ourselves.
    I'm a proud member of the Seattle Manufacturing Industrial 
Council, and have served as its co-chair for 5 years.
    Over the past several decades, my volunteer work includes 
serving on the board of the Seattle-King County Workforce 
Development Council and as chair of its Youth Council, serving 
on the King County Children and Families Commission, and 
chairing the Advisory Board for the King County Juvenile 
Detention Facility.
    In my view, too many people and agencies dismiss 
traditional industry as a relic of the past. However, there 
continues to be good job and career opportunities on an 
extremely large scale in this sector. Many of these jobs are 
accessible to people who may not have the skills and aptitudes 
to obtain comparable wages and benefits in other employment 
sectors.
    Industrial employers tend to be forgiving regarding past 
poor life choices, but value a new employee for an honest work 
ethic and willingness to learn new skills while on the job. 
Entry-level positions generally pay well, and there's 
considerable opportunity for career advancement and wage 
progression. According to a recent employment security job 
vacancy survey, industrial employers in the State have over 
15,000 unfilled job openings. The metal trades cluster, which 
I'm part of, according to B&O tax records, has enjoyed 96 
percent revenue growth and 15 percent job growth over the past 
5 years. That compares favorably with the economy as a whole, 
which grew 39 percent revenues and 12 percent in job growth in 
the same period.
    Good economic development policies build on a region's 
strengths. Our workforce and youth programs should do the same. 
One of our region's greatest strengths is industry. I hope that 
today we can discuss how we can better educate and train young 
people to take advantage of the excellent career opportunities 
in the industrial sector.
    Thank you.

STATEMENT OF DAVID STEINHOFF, ELECTRICIAN'S APPRENTICE, SUMNER, 
                               WA

    Mr. Steinhoff. Thank you, Senator Murray.
    I'm David Steinhoff, and I went through the ``Get 
Electrified Program,'' which is a program sponsored by the 
Workforce Development Committee. And it was a great program. I 
got into the Residential Wiremen Union, which is the JTC, 
member of the IBEW, and I just recently graduated, and now I am 
a residential wireman. Along the way, it was interesting to 
find a career that I would enjoy, because, going into this 
program, I, frankly, had no idea in what I wanted to do, and 
this program offered the perfect solution to testing it out 
with not completely committing myself to going into the 
Residential Union.
    In closing, it was a great program, and the same with the 
apprenticeship in the JTC.
    Thank you.
    [The prepared statement of Mr. Steinhoff follows:]
                 Prepared Statement of David Steinhoff
    As a freshman in high school I won the regional International 
Science and Engineering Fair and traveled to Louisville Kentucky to 
participate in the International fair. This was an indicator that 
college was the path for me.
    My sophomore and junior year I took electronics and advanced 
science and math classes to prepare me for my college years.
    During my junior year I went to the career office to find out about 
a job for the summer. There were three options: a 2-week program at 
Bates Vocational School for electricians, a 4-week program with 
Bonneville Power, and the Get Electrified program. I was accepted in 
all three programs and chose the Get Electrified program because it 
continued through my senior year. I began working that summer as an 
electrical apprentice and decided becoming an electrician was the right 
career for me.
    During my senior year I went to school for half the day and spent 
the rest of the day working as a pre-apprentice Monday--Thursday. On 
Fridays the Get Electrified program provided training in conflict 
resolution, research into the electrical field, safety training, resume 
writing and other basic job skills.
    After graduation from high school I continued my education as an 
electrician while working full time at City Electric of Tacoma. The 
Pierce County Workforce Development Council In Demand Scholar program 
provided me with scholarship funds to help pay for books, tuition, 
tools and other work-related items. The classes provided through the 
union are accredited and will give me 25 credits toward an AA or higher 
degree if I decide to continue my education.
    I am currently working as an electrician for City Electric of 
Tacoma. I have completed my 2 years of training as a residential 
electrician. The next step for my career is to take the test so I can 
be a licensed Residential Journeyman Electrician B.
    My near-term future career plans include training to become a 
licensed commercial electrician.
    For students who struggle to complete high school, more emphasis 
needs to be placed on vocational training and apprenticeship programs. 
When I attended the career fairs at my high school, the colleges were 
well represented, but I found very little information on the 
construction trades.
    More funding to help students pursue a career in the construction 
trades is needed. Funding for part time or after school work programs 
are needed to give students who struggle academically or who choose not 
to pursue college a chance to try out other career options. The School 
to Apprenticeship program is a proven program which would benefit from 
increased funding.
    The Pierce County Workforce Development Council provides an 
excellent opportunity for those students who are not college bound. 
Increased funding for scholarships is needed to help students with 
continuing education to get ahead in their chosen career.

         STATEMENT OF CHARLES H. MITCHELL, CHANCELLOR, 
        SEATTLE COMMUNITY COLLEGE DISTRICT, SEATTLE, WA

    Mr. Mitchell. Thank you. Senator Murray, I, too, would like 
to offer our thanks for this opportunity to discuss this much 
needed item in our State.
    I couldn't help but hear David and how he's come through a 
pre-apprenticeship program, and now--he's gone through the 
apprenticeship, and now you're a regular card-carrying 
individual. I say that, because we have--here on the front 
row--we have Bob Marcos, who's with the Seattle Vocational 
Institute, and he's brought with him some of our students, and 
they are in the pre-apprenticeship program right now. I know 
they're looking forward, through those pathways, so that they 
will be in the same seat here.
    My name is Charles Mitchell, and I'm chancellor of the 
Seattle Community Colleges. I think, around the table, I 
represent the community college system.
    Statewide, we have 34 community college districts. 
Annually, we graduate about 500,000 students. That's about 60 
percent of the students in higher education. Coming down more 
locally, in Seattle, we have three colleges, and we have 
Seattle Vocational Institute, and we have five other learning 
institutions.
    I'd just like to say, about community colleges--I always 
say that I think, along with the GI Bill and the community 
colleges--community and technical colleges, we kind of 
democratized education, because we gave people who, before, 
never had an opportunity to go into higher ed, that 
opportunity.
    We have three basic missions. Of course, we have the 
transfer programs and--of our colleges, including the 
University of Washington, 41 percent of those students who 
graduate from our 4-year colleges had their first experiences 
at our community colleges. We also have basic skills programs. 
Students come for English as a second language, high school 
completion, and adult basic education.
    Also, as you know, and more to what we're talking about 
today, we have the professional technical programs, and we have 
many throughout the State and throughout our Seattle community 
colleges, and we have many of the certificate and degree 
programs for students, where they can get livable wage jobs and 
the same jobs that we're talking about here today.
    Our community colleges--we, kind of, sit in the middle of 
everything, because we partnership with all of the 
institutions. Of course, the K-12, we're very interested in how 
students are performing in the K-12, because they're coming 
through us, and too many of them would have to take some of our 
developmental classes, especially in the area of math. It would 
be helpful if they came more ready. But we are working on that 
with the K-12 districts throughout our State.
    We partner with business and industry. With our community 
colleges, all of our programs, we have advisory boards, and 
they consist of individuals from the industry, and that way 
we're able to keep up with the latest state-of-the-art, so that 
when our students graduate from our programs, they will be 
ready.
    We partner with the Department of Labor. In fact, the 
school that we're in here today--South Seattle Community 
College--they have one-third of all of the apprenticeship 
programs in the State of Washington among our community and 
technical colleges.
    Also, we work with many of the community organizations, 
because we feel that we serve our community, and so, we're 
involved with a lot of that.
    We partner with the 4-year colleges, as well. The 
University of Washington, as I said, we do transfer students to 
there. We have great partnerships with the Federal Government. 
I like to give credit to Senator Murray of some of the programs 
that we have. At our district level, we have a health 
institute, and a DOL grant really helped us there. We have a 
$2.8-million grant, and that, along with some of our State 
moneys, we've been able to build a health institute, where 
we're able to start students at a CNA, certified nursing 
assistant, going to an LPN and an RN. We couple that with some 
moneys that we get from the State in a program called I-BEST, I 
think it's Integrated Basic Skills and English as a Second 
Language. But with that money we're able to hire two 
instructors. We hire an instructor to teach the content of the 
class, and they also teach the language. That way, the students 
can get through the program sooner than if they took the 
language classes first and then took the vocational program 
second. That's an example of how we've utilized moneys from the 
Federal Government, as well as the State, and how that has 
helped us to get the job done.
    I just want to say one thing about--I think it's been 
mentioned--about the baby-boomers and the retirement. That is 
so true, because many of these individuals who are working with 
us, they're saying, ``We cannot find people for the jobs.'' And 
it's going to get worse, because we have more people retiring 
every year, of those baby-boomers. I'd just like to say that we 
have the high school students, and we concentrate on that, but, 
as well as that, we have, in the State of Washington, 1.4 
million individuals who are between the age of 25 and 49, and 
these are people without--they either have a high school degree 
or less. These are students that, somehow have to come into our 
colleges to get the training, be retained, and graduate in 
these programs so they can help out the industry. That 1.4 
million is the equivalent of 10 years of graduating classes for 
all of the high schools in the State of Washington, and so, 
with those graduating classes, they will not meet the need--
those coming through that pipeline. So, we have to find a way 
to educate that other group that's out there. In addition to 
that, many of these individuals, if they do not get the 
education, we may have to pay in a negative way, in the prisons 
or in some other way.
    I'm just pleased that we're together today to try to talk 
about these solutions of how we're going to solve the problems 
of our skilled workers.
    Thank you.
    [The prepared statement of Mr. Mitchell follows:]
             Prepared Statement of Dr. Charles H. Mitchell
    Good morning. My name is Dr. Charles Mitchell and I am chancellor 
of the Seattle Community College District. I am pleased to be able to 
appear before the Subcommittee on Employment and Workforce Safety to 
present the perspective of the Seattle Community Colleges, as well as 
the community and technical colleges of Washington State.
    I would like to first start by providing some background 
information about Washington's 34 community and technical colleges and 
their role in Washington State's economy. To give you a sense of the 
scope of the role of community and technical colleges in Washington's 
higher education system, in Fall 2006:

    <bullet> More than 250,000 students enrolled in Washington's 
community and technical colleges (the colleges serve approximately 
500,000 students annually, or about 60 percent of all students enrolled 
in Washington's higher education system).
    <bullet> Almost 86,000 of these students were enrolled in workforce 
education courses. Workforce education students were older (median age 
29) with almost 36,000 students enrolled full time (42 percent).
    <bullet> Almost 65,000 students were enrolled in academic transfer 
programs. Transfer-bound students were typically young (median age 21) 
and enrolled full time (about 60 percent).
    <bullet> Approximately 33 percent of transfer students and 14 
percent of workforce education students were enrolled in pre-college 
courses to improve their math, reading, writing or study skills.
    <bullet> Approximately 20,000 students were enrolled in basic 
skills training.

    When we look at our workforce programs, we see the critical role 
that community and technical colleges play in Washington's economy. In 
responding to workforce needs, community and technical colleges offer a 
broad array of programs. They range from traditional transfer degree 
programs to highly sophisticated technical training programs that 
prepare students for high-wage jobs, to basic education and English as 
a Second Language (ESL) courses. An increasing number of our students 
are ``reverse transfers'': people who have completed baccalaureate 
programs and decide to enroll at a community college to pick up 
specific occupational skills in order to work in new occupational 
fields.
    At the Seattle Community Colleges, we educate more than 50,000 
students annually at our three colleges, a vocational institute and 
five specialized training centers throughout Seattle. With more than 
2,400 faculty and staff, we are one of the largest operating 
organizations in Seattle, providing a significant economic benefit to 
the region. We prepare students to successfully transfer to 4-year 
institutions, successfully enter the workforce, gain basic skills 
training, and continue life-long learning.
    We pride ourselves in our focus on diversity and are leaders in 
addressing the educational needs for students of color. Seattle is 
highly diverse, with residents reporting more than 100 different 
ancestries and speaking multiple languages. Reflecting this diversity, 
almost half of the students at the Seattle Community Colleges (49 
percent) are students of color and we transfer more students of color 
and international students to the University of Washington than any 
other higher education institute.
    I would like to turn now to four key issues that I submit to the 
Subcommittee for consideration:

    1. Current and future employer needs for highly skilled workers in 
Washington State;
    2. Pathways that engage students in high school, prepare them for 
postsecondary education and career training, and lead to family-wage 
jobs with good benefits;
    3. Successful partnerships that help youth gain career-building 
skills and that develop a supply of highly skilled workers for 
employers; and
    4. Ways the Federal Government can serve as a catalyst in making 
connections between high school and post-graduation opportunities for 
students.
    1. current and future employer needs for highly skilled workers 
                          in washington state
    Washington is the Nation's leading State in international trade per 
capita, with one in three jobs tied to international trade. We are 
truly a globally competitive State in that we export three times as 
much as the average State and our total trade is more than two times 
that of the average State. Washington's economy is a leader on many 
measures, including our favorable business climate, level of 
innovation, and attractiveness to new business ventures and start-ups.
    While we enjoy one of the strongest economies in our Nation today, 
our industries and businesses are experiencing severe shortages of 
skilled workers in key industries, impacting our economic prosperity. 
Jobs in demand requiring a community college level education include 
computer support specialists, health care professionals, aircraft 
manufacturers, mechanics and service technicians, and those working in 
the construction trades.
    As the subcommittee's research noted, this past spring there were 
more than 87,000 open positions and 148,000 unemployed people 
throughout Washington State. This shortage of skilled workers will 
continue to increase due to demographic changes, in particular, 
retiring baby boomers and an increasingly diverse population with 
greater educational needs.
    In 2005, more than 22,000 Washington employers (11 percent) had 
trouble finding workers with either a professional-technical 
certificate or 2-year degree. In particular, employers say that skills 
shortages were hurting their businesses by limiting output or sales, 
lowering productivity, and reducing product quality. And one-third of 
businesses report that the skills required to adequately perform even 
production or support jobs had increased over the last 3 years and that 
the need for workers with postsecondary training will continue to 
increase.
    Some level of postsecondary education is now necessary for a job 
that pays a living wage. At a minimum, research by the Washington State 
Board for Community and Technical Colleges has shown that 1 year of 
postsecondary education and a certificate is necessary. Compared with 
students who earned fewer than 10 college credits, those who took at 
least 1 year's worth of college-credit courses and earned a credential 
had significantly higher earnings, up to $8,500 more annually.
    Our community and technical colleges play a critically important 
role in addressing these issues and ensuring that we have a skilled 
workforce. We see this in our efforts to make sure that every student 
is ready for college. Within 3 years following high school graduation, 
about half (47 percent) of all high school graduates have enrolled at a 
community or technical college in Washington. We have more work to do, 
however. Compared with other States, Washington ranks poorly in the 
percent of students enrolling in college directly from high school and 
in the percentage of ninth graders who complete an associate degree or 
higher.
    We know that we face challenges in filling those jobs that require 
specialized skills unless our colleges and our business industries make 
major investments. Better preparation for high school students is one 
part of the solution, yet training more high school graduates alone 
will not meet Washington's job skills gap.
    Now, our challenge is that in Washington we have 1.4 million 
individuals between the ages of 25 and 49 with a high school degree or 
less. This is equivalent to 10 years of graduating classes from all of 
our public high schools. Many of the individuals in the cohort of 25-49 
years of age are people of color and people with ESL instructional 
needs. These are the students that we are working with and it is 
imperative that we are successful in bringing these individuals to our 
colleges and enrolling them in our workforce programs.
   2. pathways that engage students in high school, prepare them for 
 postsecondary education and career training, and lead to family-wage 
                        jobs with good benefits
    Washington's community and technical colleges have undertaken a 
number of initiatives to improve student pathways, including pre-
college courses, the Transition Mathematics Project, the Running Start 
program, the Opportunity Grant program, and the Integrated Basic 
English and Skills Training (I-BEST) program. We have comprehensive 
articulation agreements with our 4-year colleges and institutions and 
are one of several States to offer 4-year applied baccalaureate degrees 
at our community and technical colleges. The Federal Government also 
plays an important role through the support provided by Department of 
Education programs and the Department of Labor's Community-based Job 
Training Grant.
    Despite increasing demand for skilled workers with postsecondary 
training or education, recent high school graduates are not prepared to 
take college level courses and about half of all high school students 
entering our colleges require pre-college (or developmental) 
coursework. While the need for pre-college education programs at the 
postsecondary level is a significant policy issue, pre-college 
education is indispensable, given the overall level of the Nation's 
educational system today and the demographics of the college 
population. It is important to remember that pre-college programs serve 
far more than just recent high school graduates, and that the need for 
remediation is not always reflective of the quality of current high 
school education.
    To address the need for better college-level math preparation, the 
Washington State Transition Mathematics Project (TMP) has designed 
standards with teachers and faculty from high schools, community 
colleges and universities to help students meet admission requirements 
and avoid remediation.
    Washington's highly successful Running Start program allows high 
school students to begin their college studies while still enrolled in 
high school, greatly shortening the time required to earn a 
postsecondary degree. At the Seattle Community Colleges, we are 
pursuing these and other articulation initiatives with the Seattle 
Public Schools to successfully enroll high school graduates in our 
vocational and academic transfer programs.
    In the last legislative session, the Washington Legislature 
provided enhanced funding for two highly effective programs that get 
students into the workplace: the Opportunity Grant program and the I-
BEST program. Based on Georgia's successful Hope Grant Program, 
Opportunity Grants provide educational access and support for low-
income adults to progress further and faster along demand career 
pathways. Opportunity Grant funding is used to provide eligible 
students with tuition and fee waivers, books, childcare support, and a 
variety of student wrap-around support services.
    The I-BEST program is an effective instructional approach that 
pairs ESL/adult basic education instructors and professional-technical 
instructors in the classroom to concurrently provide students with 
literacy education and workforce skills. For instance, North Seattle 
Community College's I-BEST Accounting Paraprofessional program provides 
practical training to prepare ESL students for work as bookkeeping, 
accounting or office clerks. Students will receive support from ESL 
faculty while they complete four quarters (62 credits) of accounting 
and business courses. Similarly, South Seattle<plus-minus> Community 
College has a large immigrant student population seeking job skills 
training. To address the needs of these students, the college has 
developed innovative health care job training courses that infuse ESL 
instruction into the curriculum.
    Comprehensive articulation agreements also support students 
successfully transferring from our community and technical colleges to 
4-year institutions. Almost 500 Seattle District students transferred 
to the University of Washington Seattle campus in 2005-2006 and about 
12,000 students transferred statewide to 4-year institutions. This is a 
significant pipeline for first-generation college students, low-income 
students, and students of color. Statewide, students are transferring 
from community and technical colleges into high demand fields: 39 
percent of math, science, engineering, engineering tech and computer 
science baccalaureates, and 55 percent of math and science teacher 
baccalaureates are 2-year college transfer students.
    In addition to hosting 4-year university degree programs at our 
campuses, another important initiative at our community and technical 
colleges is applied baccalaureate degrees. South Seattle Community 
College is one of four community and technical colleges statewide 
authorized to offer an applied baccalaureate degree in Washington 
State. This initiative will further enhance pathways for students to 
gain the higher education skills needed to succeed in high-demand 
occupational fields. Other innovative programs include Seattle Central 
Community College's participation in the Lumina Foundation's Achieving 
the Dream program, and development of a new Employment Resource Center 
at North Seattle Community College that will co-locate several State 
agencies to support better integration of employment, educational and 
social service providers.
    Federal programs are critical to community college initiatives to 
improve student success. The Department of Education's TRIO program is 
an important resource that provides early intervention and support 
services to encourage disadvantaged youth to complete high school and 
enter college. All of our colleges have benefited from the TRIO 
program. Seattle Central Community College has participated in the TRIO 
Student Services Support program since its inception and the colleges 
also participate in the Upward Bound and Talent Search programs. For 
instance, each year the TRIO Talent Search program provides educational 
opportunities to more than 600 6th-12th grade school students from 
seven schools in the Puget Sound region. More than 3,500 students have 
benefited from the Talent Search program in its 7-year history at South 
Seattle Community College. We have also received Federal title III 
funding to increase the number of ESL students transitioning into 
college-level coursework. Title III funding has been critical for non-
native English speakers to succeed: 85 percent of the nursing students 
at South Seattle Community College were enrolled in the ESL program. In 
addition, many community colleges are also deeply involved with their 
local school systems through the Department of Education's GEAR UP 
program. Finally, the Seattle Community Colleges receive significant 
financial resources under the Perkins Act to support career and 
technical education that prepares students both for further education 
and for the workforce.
    Another Federal program, the Department of Labor's Community-Based 
Job Training Grant, has provided $2.8 million to the Seattle Community 
Colleges to train more than 700 students in high-demand health care 
occupations. The capacity-building program will have long-term positive 
effects for our health care programs. As you can see, Federal support 
is a critical component of our workforce development strategy.
3. successful partnerships that help youth gain career-building skills 
   and that develop a supply of highly skilled workers for employers
    As I have discussed, we have extensive partnerships with our public 
schools, universities, workforce development agencies, Federal 
agencies, and business, labor and industry partners. In particular, 
community and technical colleges in Washington State have close 
relationships with business, labor and industry through our program 
Technical Advisory Committees, through close coordination with our 
workforce investment system, and through professional organizations, 
associations and State economic development agencies.
    Recognizing the need to fill high-skill, high-demand occupations 
with qualified workers, the Washington State Legislature allocated 
significant high demand funding to community and technical colleges 
statewide in the right areas--science, technology, engineering, math, 
health care, and manufacturing. This included funding for an additional 
700 FTES statewide and 55 FTES for the Seattle District. At the Seattle 
Community Colleges, we are using high-demand funding to respond to 
critical shortages of skilled staff in health care through our Health 
Care Education Institute and building successful career pathways for 
our students in a variety of high-demand fields.
   4. ways the federal government can serve as a catalyst in making 
 connections between high school and post-graduation opportunities for 
                                students
    Several trends affect how we deliver training and instruction:

    <bullet> Globalization and increasing international competition--
nations with strong educational systems are going to be the ultimate 
economic leaders;
    <bullet> Rising skill requirements across the economy, ranging from 
manufacturing to professional services--jobs that pay a living wage 
increasingly require postsecondary education;
    <bullet> Rapidly increasing costs of education--rising costs of 
tuition, textbooks and living costs are far outpacing income growth in 
a period when advanced skills training and education requirements are 
increasing; and
    <bullet> Increasing diversity in our population--Washington State 
will become increasingly diverse, with the highest growth rates among 
first generation students and students of color.

    In response, community and technical colleges are:

    <bullet> Restructuring instructional programs and classrooms to 
keep pace with global trends and new learning modes;
    <bullet> Launching new teacher-training partnerships with 4-year 
colleges and universities to support student success;
    <bullet> Searching for new funding streams to ensure our students 
have the resources they need to successfully meet these challenges, 
especially first-generation and low-income students; and
    <bullet> Developing innovative instructional programs that focus on 
first-generation and non-English speaking students with effective ESL 
instruction. The Seattle Community Colleges are leaders in offering 
health care training using this method of instruction.

    I would commend to the committee the need to more closely examine 
these trends, examine how Washington's community and technical colleges 
are responding innovatively to these issues, and consider Federal 
support for our efforts.
    Congress plays a critical role in identifying and supporting 
programs that have been proven to increase the success of community and 
technical college students. The Federal TRIO programs, created within 
Title IV of the Higher Education Act of 1965, are educational 
opportunity outreach programs designed to motivate and support students 
from disadvantaged backgrounds. Their intent is to provide equal 
educational opportunity for all Americans regardless of race, ethnic 
background, or economic circumstance. As I noted previously, we have 
several TRIO programs underway at the Seattle Community Colleges; 
unfortunately, the programs have not received sufficient funding to 
keep pace with inflation and rapidly increasing higher education costs. 
This has resulted in drastic program cuts in staff development, student 
support services, and other program costs, with a likely reduction in 
program enrollment rates. Increased support is essential to maintain 
the quality of this highly effective program.
    In addition, funding provided through the Department of Labor 
Community-Based Job Training Grant has allowed the Seattle Community 
Colleges to substantially increase our capacity to serve students in 
high-demand health care training programs. Designed to build long-term 
capacity, these Federal resources are a critical catalyst in addressing 
long-term workforce development needs and we hope the program 
continues. And continued support under the Perkins Act is vital to the 
long-term success of our career and technical education initiatives 
with our K-12 partners.
    Finally, I would like to point out that the singular importance of 
Federal financial aid and the need to make it more accessible for 
workforce-bound students. A recent study conducted by the Washington 
State Workforce Training and Education Coordinating Board found that 
the financial costs of tuition, fees and living expenses, coupled with 
lack of information about training opportunities and financial aid, 
were the greatest barriers to student success.\1\ I would recommend 
that Congress consider ways to further consolidate and simplify the 
delivery of workforce education financial aid.
---------------------------------------------------------------------------
    \1\ The report, Workforce Education Financial Aid and Student 
Access and Retention, may be retrieved online at: http://
www.wtb.wa.gov/Documents/Tab5-WorkforceEducationFinancial 
Aid.doc.
---------------------------------------------------------------------------
    In closing, at the Seattle Community Colleges we are 
``democratizing education'' by promoting diversity and excellence for 
all our students . . . whether it's an immigrant learning a new field 
while undertaking English instruction, a transfer student intent on 
earning a baccalaureate degree, a dislocated worker seeking job 
retraining, or a retiree preparing for a second career.
    Thank you for your invitation to speak to the commission on behalf 
of Washington's community and technical colleges. I am happy to answer 
any questions that you may have at this time.

    Senator Murray. Thank you very much.
    Well, thank you, to all of our panelists. We have some 
tremendous institutional knowledge here from many different 
aspects, as we've all heard, from education, from business 
owners, from labor, from workers, from young people themselves. 
I think it's really clear why this hearing is so important and 
what we hope to learn from it.
    We cannot afford for a third of our young people today to 
not graduate, and not have the skills they need to enter the 
workforce. We need every single one of them, for our businesses 
to expand, to grow, and continue the needed economic stability 
in our region. Businesses need to work with us to make sure 
students have the right skills and that we are educating young 
people in those identified skills.
    For me, the most important thing is showing every young 
person out there that there is a pathway to success. We don't 
just have the 50-year-ago model that said you went through 
school, graduated, went on to college, or not, then got a job. 
We have to find a way for every student, as Meisha pointed out, 
to find the right career path for them. It's a tremendous 
challenge for us.
    I'm holding this hearing as a way to begin to understand 
what some of these challenges are. I will continue to hold 
hearings around the State and will be using what I learn from 
here to work at the national level and make sure that our 
national policies and resources are being used to meet these 
needs.
    I hope to throw out some questions to our panelists here 
and for those of you who think you can contribute, please feel 
free to answer.
    Let me start by asking all of you, from your individual 
experience, whether it's an employer or a student, whether it's 
a worker, yourself, or whether it's clients that you work with 
or programs that you work with, what are the barriers that you 
have encountered finding skills training for yourself, for an 
employee, or for your clients, or whoever you work with? What 
are the barriers there to getting the proper skills training 
for jobs we know are out there?
    Let's start with you, Kris.
    Ms. Stadelman. Well, I want to say, first, that I think we 
know what works. I think, on the demand side, we have learned 
that it really is about the connection of the employer with the 
industry and with the company with education that makes a 
difference. But, on the other hand, the barrier is that it's 
generally one school at a time, one company at a time, one 
industry at a time, personality-based, based on the person who 
really drives that connection. Bob Markholt, from PACT, is a 
perfect example of a program that is highly integrated with 
industry, and that's why all of his students wind up in 
apprenticeships and with good jobs. But, without him, I'm not 
sure it would be the same. I think we lack a systemic approach 
of involving employers with education.
    On the supply side, I think we know what works in helping 
young people, especially those at risk for homelessness, for 
dropping out of school, being in trouble with the law. What 
works is interaction with a single caring adult and also 
experience on the job or knowledge of what a job might be, 
seeing themselves in a job someday, whether it's an internship 
or work experience or whatever. We know that that works. But 
the resources keep getting smaller to deliver that case 
management, that person who's going to help them with 
structure, find the tutor, give them encouragement. I think we, 
at the WDC, do a really good job of that, but last year, 
Senator, we only served 870 young people, the smallest number 
ever. Now we know, because of the Federal budget, that number 
is going to get smaller again next year. Resources to deliver 
what we know works is our barrier.
    Senator Murray. Others?
    Bob.
    Mr. Drewel. Well, just following up on Kris's comments, 
it's an access problem, either to community colleges, to 
apprenticeship programs. I would suspect there is not a person 
here, an employer, our friends from organized labor, educators, 
or students who wouldn't agree with the comment, if you had 
greater points of access, if you had resources that could be 
deployed in a fashion, perhaps, with less strings attached to 
them, because there are a lot of constraints that come with 
these dollars, that we would do away with the problems of not 
having enough nurses, but we know that community of medical 
colleges have many more applicants for nursing programs than 
they can possibly meet. I think the situation just grows in 
community colleges, in engineering programs. They're programs 
that cost something. Well, the future ought to cost us 
something if we're going to be successful. I think Kris's 
theme--and I'd be pleased to hear from our friends from labor 
here on the apprentice programs or--how many applications do 
you have, and how many opportunities do you have to respond to 
them?
    Senator Murray. Yes, Mr. Veliz.
    Mr. Veliz. An invitation to the table on inclusion, Mr. 
Drewel is talking about. It's--in the aerospace industry--and 
that's what's worrying, as far as mechanical engineering and 
being around for 10 years in this industry. I started my career 
27 years ago, at Atari. Most of you guys don't know that, but 
older folks--us--we know what Atari is.
    [Laughter.]
    So, a lot of years working in the high-tech industry. Of 
course, someone who brought me here was mentors who basically 
grabbed me by the shoulder and neck and said, ``Stay in school 
and finish and move on.''
    But, the biggest challenge--as I have said, it's an 
invitation to the table on inclusion. Here's some of the things 
that I wrote down about what that means.
    We need to find a way to strategize with our youth today in 
our school system, the same way we strategize in the business 
industry. Yes, we have a need for a more inclusive workforce, 
and we need corporations--we need small businesses that are 
going to actually reach out to these mentoring and intern 
programs. But, what's the vehicle? The vehicle is the pipeline, 
the pipeline that comes from the larger corporations. It is not 
the government's responsibility, it is not the corporation's 
responsibility. It's the strategic plan of all us having to put 
this plan together and say, ``OK, you know, if ''--I'm just 
going to put a name out there, just because it's there--``the 
Boeing company.'' Here, we have this incredible industry. It's 
a company called the Boeing company, who, globally, is our wow 
factor for Washington State. OK? So, they go and sell planes 
all over the world, they open plants all over the world, 
because they have to--that's their core competency, selling 
planes. They have to. Well, we also need to make sure that we 
have the backfill of that pipeline for the small corporations 
in Washington State which feed our school system, which feed 
you guys out there. That's the pipeline.
    Here's an example. Snohomish High School, where J.D. came 
from--what's the program?
    Mr. Osborn. It's the precision machining and CAD.
    Mr. Veliz. OK. Several million dollars of high-tech--they 
can run their own company from Snohomish High School. They can 
build their own airplanes from Snohomish High School. That's 
how powerful this high school is. But they're producing 
individuals that are coming out of the high school system into 
the college system that are much more advanced. True?
    Mr. Osborn. True.
    Mr. Veliz. Here's this----
    [Laughter.]
    Mr. Veliz [continuing]. This path--here's this vehicle that 
we have in our access today that--are we plugging into it? No. 
Are we creating models that match that around the State? No.
    Tulalip Tribes. Did you know that the Tulalip Tribe today 
has the bandwidth to compete or surpass Comcast? Are we 
plugging into them? No. It's a different topic. But there are 
struggles there. OK? We can talk--we can discuss that.
    Mr. Harrison. I want to build on it. I think that's 
absolutely right. The vehicle, then, for making sure what 
you're arguing should happen happens is much richer, vital 
partnerships between individual companies, groups of companies, 
and school systems. I was just going to add a little painful 
part of that. Navigation One-on-One is the new instrument that 
the school systems are supposed to use to help get a kid on a 
path. Right now--so far, at least--that's working; it could be 
wonderful, but it works better, I think, in terms of which 
college do you want to go to than it does with which other 
career or technical opportunity you might want to advance. We 
have got to figure out a way to get the companies of Washington 
into the school systems of Washington in huge new ways. For a 
kid--``kid''--for a young person, there's got to be some kind 
of new light that goes off. There are 100 different ways to 
meet the needs of that kid.
    Mr. Veliz. No, I disagree with that.
    Mr. Harrison. Pardon.
    Mr. Veliz. Excuse me. I disagree with that. When our youth 
come to our schools every single day, there needs to be a door 
that is inviting----
    Mr. Harrison. You're agreeing with me. I'm not----
    Mr. Veliz. Well, I want to--there's something that you 
mentioned there that I don't agree with that----
    Mr. Harrison. OK.
    Mr. Veliz [continuing]. It has to be inviting, in a sense 
where the students are engaging with the administration that 
either are bilingual, that can actually relate to our students 
that are walking in the door. Again, it's that invitation to 
the table, and it's inclusion, right? What we have today in a 
lot of our areas, in our schools, which is going to continue 
unless we change something, and it's going to hurt all of us as 
we move forward, whether we like this or not--what's happening 
is that we're lopsided. We have the--whether it's the African-
American or the Hispanic community or the Asian, these 
islanders, or the tribes around the State, they're wanting to 
come into the system, they're wanting to be a part of the 
table. But we're on the back end for our administrators, we're 
not bringing enough of the matching and kind of----
    Senator Murray. So, we're not----
    Mr. Veliz [continuing]. Bringing that flow.
    Senator Murray [continuing]. Inviting everyone to the 
table.
    Mr. Veliz. Exactly. And we need to do that, because----
    Senator Murray. You're talking about students themselves?
    Mr. Veliz. Well, we need to have for example, an 
administrator--if I'm in the class, and I can mention--there's 
a couple of high schools in Snohomish County that I think we 
have like, 70 percent of minority students, and less than 5 
percent of the administration is minority.
    Mr. Harrison. Let me add one thing to that. I agree with 
that 100 percent. While we're setting--it's another missing 
dimension, and that is, when you're 14 or 15, you're developing 
an idea of what you want. What you're saying is, have people 
there that can help you do that. I think we have work to do 
there. We're also sending the signal that career and technical 
pathways are not--we're not sending the signal that they could 
be pursued effortlessly and beneficially. Right now we have a 
big tension over grade 11 and year 12. Director Stadelman said 
it perfectly, it's ``both/and''--we want rigor, we want 
relevance, we want academic preparation, and we want relevance 
for career and technical skills. Right now in our WASL focus, 
our understandable WASL focus, we have the danger that we 
kneecap career and technical education on a regular basis, and 
we've got to stop that.
    [Applause.]
    And we can stop that.
    Senator Murray. Rick Bender.
    Mr. Bender. Yes. Senator, I want to follow up with what 
David said. The reality right now, we're not doing a very good 
job in our K-12 system with our counselors, advising what the 
opportunities are for young people, besides just going on to 
college. Not every student wants to go on to college when they 
get out of high school. But we've got to provide them the 
information that they need to make good choices in terms of 
pathways, where they can make a good living with benefits and 
retirement security. We also need to take a look at our 
approaches. We can't just teach the WASL. For example, 
Retinville Tech has produced a text that is construction math. 
How often do we hear from young people that, ``I'm never going 
to need that math once I graduate from high school? ''
    [Laughter.]
    Well, what this does, it translates what you need to know 
in mathematics to be a skilled carpenter or a skilled plumber/
pipefitter, or a skilled sheet-metal workers. We need to take a 
different approach, in terms of embodiment of a different 
pathway so that these students can get involved and engaged in 
a career that they want, and understand what the requirements 
are going to be----
    Senator Murray. So, you're saying that the curriculum 
itself in schools is a barrier to students seeing those other 
career opportunities.
    [Applause.]
    Mr. Bender. Yes. It's directed toward going to college. 
That's great, and I support that very strongly. But the reality 
is, that's probably not the best way to teach a lot of young 
people, where math is not really a prime interest of theirs, 
but they need to understand that math does play a role in 
various occupations and careers that they might want to go 
into, and then teach it from that approach.
    The other problem that we have, too, I think, in the K-12--
or whole system--it really isn't a seamless system. We want it, 
but it isn't. I had a chance to go to Germany and take a look 
at their apprenticeship programs, and I had a chance to visit 
Siemens Corporation, which is a multinational corporation, very 
big. They train 10,000 electrical apprentices every year, but 
they have a system, where, if they so desire, they get 50 
percent of the--those who complete their apprenticeship program 
get an opportunity to go on to get an electrical engineering 
degree. We don't have that. We have to start all over again, 
once you go through your apprenticeship and you become a 
journey craft level, if you want to become an engineer, you 
have to start from ground zero, and that's a barrier. We need 
to take a look at a system that's more seamless.
    Senator Murray. Mr. Allen.
    Mr. Allen. Yes, for a more holistic view, I think that a 
real barrier that speaks to all of this is--and I see it in my 
kids' schools--is that we need to have a societal paradigm 
shift in how we're saying what a career is to kids. We don't 
have any employees at McKinstry that we don't view as having a 
career path, from the building trades--we have building trades 
people--``I've done that for 4 years, I'd like to get more into 
the building operation and the computer side of it. How do I do 
that?'' We don't have any strata on who's better than anybody 
else at the company. If what you say about passion drives a 
successful career, I think a view of what's out there would 
stimulate the passion, which would then work toward a career. I 
think we're trying to get into the middle schools with the 
plumbers and pipefitters trade--to get the families at the 
table so that we tell--and there is a certain amount of 
illusion--I have to be careful with this, because we hire 4-
year college graduates a lot--there's a certain amount of 
illusion that a 4-year degree can get you to a higher wage--
family wage--faster than not doing that. I'm telling you right 
now, well, I'll go on the record, I guess--the building trades 
people that work for us make between $75,000 and $120,000 a 
year. A 5-year apprenticeship, if you went in at 18, you'd be 
23, you're making journeyman wage. I'm telling you, you could 
take some time off and settle for $90,000.
    [Laughter.]
    I'm not advocating you tell your kid, ``Don't go to 
Harvard, because you could be a plumber.'' What I'm saying is, 
there's a lot of cool things about building trades, about 
manufacturing, where they're having trouble with getting people 
into manufacturing, because all of us adults have told kids 
that manufacturing is an assembly line on the Ford Motor 
Company in 1930, and it's dirty and you get hurt, which is not 
true anymore. I just want to have some truth spoken in middle 
school and high school about----
    Senator Murray. Well, let me ask the students. Is there a 
pressure feeling, beginning early on, middle school, that if 
you don't have a 4-year Harvard degree, then you're not a 
success in our society?
    Mr. Osborn. To an extent, yes. Ever since I've been young, 
people have told me that you need to have that piece of paper, 
that's what gets you to the job and secures you when layoffs 
come and everything else. For me college has been holding me 
back, so far, at Everett Community College. I'd like to take a 
class in green technology or sustainability or anything like 
that, but, instead, I'm having to take courses like this 
quarter, where I'm taking a CAD class, where I'm learning a 
software that I've been using for 4 years already----
    [Laughter.]
    Mr. Osborn [continuing]. In industry and in high school.
    [Applause.]
    And it's holding me back, and it's making me pay for 
classes that I don't feel are useful to me.
    Mr. Veliz. May I, please? Just to be clear, we hire degreed 
engineers. I mean, we have some of the best engineers that come 
from----
    Senator Murray. So----
    Mr. Veliz [continuing]. The automotive industry----
    Senator Murray [continuing]. We need that.
    Mr. Veliz [continuing]. Aerospace, scientists. We have some 
of the best. Of course, our young J.D., here, he seems to be 
the ``Wonder Boy.''
    Mr. Osborn. They call me ``Wonder Boy'' at work.
    Mr. Veliz. That's right.
    [Laughter.]
    Senator Murray. Let me hear from this side over here. Yes.
    Mr. Gulliot. I'd like to make a comment of what we were 
talking about earlier, the apprenticeship programs. I had 
mentioned, earlier in my introduction, that I represent the 
utility workers, but I'm also a secretary-treasurer for the 
Washington State Electrical Association, which we have 21,000 
electrical workers. Now, just take this room here, and imagine 
this is our workforce. In 10 years, take 60 percent out of it. 
That's our problem. We're trying to get apprentices. The 
building trades did a great job in getting that apprenticeship 
issue. The problem that we have in the utility side is that the 
employers aren't hiring, because they have--it goes back to the 
1990s, when deregulation came down. The first thing the 
utilities did to survive was to cut training, cut all the fat 
out of the system. We have been going along, and generation has 
gone up 30 percent, our infrastructure is in a mess, to be 
honest with you--and it's gone up 30 percent, but the workforce 
has gone down 27 percent. Now, that sounds like you're getting 
a lot of stuff done with a few people, and that is correct. 
These few people are working tremendous amounts of hours to 
keep your system on. Believe me, right now, electricity is a 
drug, because as soon as it goes out, you guys start calling 
us.
    [Laughter.]
    No question about it. And it's the linemen, it's the 
electricians, the people that install our solar panels. I mean, 
there's all sorts of work for us. Not everybody in this room 
needs to go to college, especially in our industry. It's nice. 
But if you get into K-12 and teach these students, yes, there's 
a certain level of math in our industry, but primarily it's on-
the-job training, but you have to have that certain math. If 
you don't have that math, there's nothing we can do for you. 
But, as mentioned earlier, if you get into this program, in 4 
years you're pulling down 65,000 bucks, that's pretty good.
    Mr. Harrison. Senator, one of the exciting things about 
this is all these things are true, that is, we need more and 
better high school graduates who stop right there. We need more 
and better people with 1 and 2 years of technical training. 
It's a big gap. And more and better college graduates. If you 
could get that done by a couple of weeks from now----
    [Laughter.]
    Senator Murray. Tomorrow.
    [Laughter.]
    Bob, earlier, you were talking about 10,000 more slots 
needed at our universities. That's really expensive. Our State 
legislature just cannot implement that tomorrow, because you 
have to hire all the instructors, arrange the classroom space, 
all those things. Some of what I'm hearing is, there are a lot 
of pathways to success that we could coordinate. Maybe you 
don't necessarily need to get a diploma today if you're getting 
some career training, or if these career skills can translate 
into some of those needed college credits. Are we working on 
that at all?
    Mr. Drewel. Yes. The issue of seamlessness has come up, the 
issue of how it is we get students to talk about these 
opportunities. I think, just to sum up this part of the 
conversation, and I'm going to give you plenty of time--you've 
been so patient here--we talked about access points. We're just 
talking about lining up these access points and making sure 
that the resources that we now have, individually, are shared 
in a collective fashion.
    Second, the whole issue, if you will, of the 10,000 new 
degrees, the State did step forward in this legislature--and 
the Governor--and, at the expense of $93 million, funded these 
baccalaureate degrees. But the community colleges, per capita, 
got more of that investment, indeed, than did the 4-year 
institutions. The reason is, it is a point of access. Dr. 
Mitchell commented that if--40 percent of the transfer students 
go on the 4-year schools. You can't develop the types of 
industries I chatted about earlier if you don't have laboratory 
technicians, if you don't have the individuals who really 
understand how this works.
    I hope that gets to the point, but what I'm hearing here--
and, unfortunately, crisis has become an overworked term, 
certainly at this stage of this country's maturation--but, at 
the end of the day, when you hear figures of not having 
individuals to keep the lights on, keep the water running, and 
conversations of that nature, I think what you've launched here 
today is this discussion about, How do we give the citizens of 
this country an opportunity to maintain the country, to advance 
their own careers, and provide for a stable society? There 
isn't a person at this table who wouldn't argue that education 
is the answer to that, and we just simply have to meld these 
access points together, and we have to be smarter about how we 
do it.
    For the students in the room, we need to get out of the 
``telling you how to do it'' business and getting into options 
so you can experience what it is that you might be able to do 
in the future.
    Senator Murray. Mr. Seaman.
    Mr. Seaman. Thank you. First of all, I want to comment on 
Rick's comment about the WASL. It's really true, I think, that 
if you could do one thing that would improve test scores in the 
WASL, it is to show students that the material being tested is 
relevant to their lives. That would solve almost the whole 
problem with the WASL, in my view.
    On the issue of barriers, I run a small company--and Kris 
can probably tell you, I'm not very good at theory, but I am 
good at reality and----
    [Laughter.]
    Mr. Seaman [continuing]. Reality, for me, is the Seattle 
area, because that's where our business is and where I've been 
doing it for 32 years out of 101 years of the company's 
existence. What I see as the barrier in Seattle for young 
people--the biggest barrier is, frankly, the K-12 system here. 
That's not to say that there aren't great teachers and 
administrators in the Seattle school district, and that they 
aren't doing terrific things. But, as a whole, I just don't see 
that system serving a lot of these kids well. I mean, first of 
all, there's a very high dropout rate. But even some of the 
kids that don't drop out don't find themselves in--it's one of 
the reasons why the average age in a place like this is 30 
instead of 19 or 20, is that we're not serving them well in the 
K-12 system.
    One of the big specific barriers I see there in Seattle--
and I know this isn't always true elsewhere, there's been 
examples of where it's not true, here today--is that we really 
need a full-size rigorous--for old-fashioned term, ``vocational 
high school''--skills center, if you want to call it that now, 
whatever you want to call it. But we need a really committed 
one, where both the academic and the vocational skills are held 
in high regard and taught well, because a lot of kids will 
learn better in that system--in that kind of situation. I think 
that if we had such a school, first of all, it would probably 
serve as a model for one or two more that we could use in this 
area, and it would probably further serve as a model for how 
some of that curriculum could be better adapted into the other 
high school curriculums. Another example where it's not working 
well is, as Dr. Mitchell says, the community colleges, which by 
and large are doing a pretty doggone good job with the kids, 
are spending a lot of time doing remedial work, because that's 
what they've got to work with. They're doing a pretty good job 
of it, but they shouldn't have to be spending their resources 
on it.
    I would advocate, in this specific area anyway, that a 
barrier is the lack of that kind of vocational training in the 
K-12 level.
    Mr. Mitchell. I would agree that we need, especially in the 
Seattle area, some type of skills center. They do have them in 
some of the other colleges.
    The other problem with that, and I don't blame the WASL for 
everything, but----
    [Laughter.]
    Mr. Mitchell [continuing]. But one of the things--and we've 
kind of created this monster, where all of the schools are 
measured on how those students perform on the WASL. Sometimes 
that can be a detriment. If you look at the funding of the 
budgets--and say you're a high school principal, and you get so 
much money based off of--if students have the free lunch, you 
get more money, and so, you have a set amount of money, and 
you're measured on how your students fare out in the WASL. And 
so, you have a program--say, a vocational program that's--and 
they're more expensive to run, because of equipment and so 
forth. Where are you going to put your money? What's 
happening--there's no incentive of putting that money into the 
vocational programs, and that's the reason that we would like 
an option, if we're not going to have them within the schools, 
that we would like to have a skill center.
    Senator Murray. Well, without putting words in anybody's 
mouth, it sounds to me like we have focused our education 
system on specific skills testing, through WASL and other 
things, when what we need is a more diverse education system.
    Mr. Mitchell. Right.
    Senator Murray. Pathway to success that allows people to be 
able to----
    Mr. Mitchell. Especially----
    Senator Murray [continuing]. To be successful in many 
different ways.
    Mr. Mitchell. Yes, especially, you have a school district 
with close to 50--more than 50 percent students of color, low-
economic households, and so, many of those students, if they're 
just measured by how they're going to fare out as a college 
transfer student, then we're losing a lot of those students, 
because they don't have that alternative to go into one of the 
vocational programs, because many of the schools have dropped 
those programs, just because they're more expensive to run.
    Senator Murray. Bob, last comment on this, and then I want 
to, kind of, change topics.
    Mr. Drewel. Thank you.
    I'll be very brief.
    Again, we're returning to this flexibility and access 
issue. But, in the absence of a teacher here on the panel, some 
of us have been, on some occasion--and this idea that what 
happens in our K-12 systems gets laid off at the feet of the 
educators, I think, entirely too often. When you began the 
panel here today, you were looking for a broad-based response, 
and particularly on this question, What's the barrier? Well, I 
think there is a problem with a decline in resources, that has 
been referenced here, that if we don't address them through 
this hearing and other efforts--for a couple of decades, this 
country asked teachers to do everything but teach. We sent them 
children who were just plain hungry, instead of hungry to 
learn; we got into the business of not-safe environments at 
home; we took that biggest building in the neighborhood--a 
school--and made it not the community center anymore, but just 
the biggest school--just the biggest building in the 
neighborhood. We've got to help teachers, we have to help 
administrators, we have to help these young folks have those 
Formica-kitchen-tabletop conversations about the future again. 
I remember, when I was growing up in this neck of the woods, 
somebody had that conversation with me a number of times, 
about, ``You know, you might want to go to work for the Boeing 
company, or you might want to do this, or you might want to do 
that.'' Those were meaningful conversations, because the 
resources and opportunity were there. What you've launched 
today is an opportunity to reassess that inventory, not only of 
financial support, but community support and get this business 
of literacy into the literacy of education so that this region 
can continue to grow.
    Senator Murray. Well, thank you. When I spoke, at the very 
beginning, I talked about the skills gap that we have, the fact 
that we have 87,000 job vacancies, and 164,000 people looking 
for work. If all of you could take a minute and define for me, 
from your perspective, What are the skills or requirements that 
we're missing? What are we not getting in our education system 
that businesses actually need? I would broaden it a little 
bit--all of us need to call a plumber or an electrician 
sometime in our lives, and boy, try doing that right now, it's 
almost impossible. From some of your different perspectives, 
what are some of those skills that we are missing today.
    Mr. Harrison. Senator, the annual survey that the Workforce 
Board does with its partners surveys Washington employers, and 
it focuses, as you might expect, on both harder technical 
skills, specific technical skills, and their absence. Employers 
are faced with not hiring the job at all, because specific 
technical skills are not present. But there's a lot of 
attention in the employer survey on what has, I think, 
unfortunately, been called softer skills, having to do with 
basic computation work readiness and so forth. I know you've 
thought about that, as well. On the Workforce Board, we've 
worked with some national partners and developed what we're 
calling a work readiness credential. There are some other 
efforts to try and certify a job seeker with regard to their 
work readiness, so that employers who might be concerned that 
work readiness is absent, could get more comfort. The issue 
there is, of course, How do you teach and advance work 
readiness? But the survey does show that skill gap is not just 
specific technical skills, but readiness to work.
    Senator Murray. John, Aultman.
    Mr. Aultman. I think that when you change the conversation 
from, earlier, what the academic skills that we're lacking, and 
when you ask the employer, on the other side, it ends up to be 
the soft skills, the ability to show up to work, be on time, 
``I'll train them, I'll go from there,'' but there's a blend in 
between. It's that combination of the technical skill and the 
academic skill and the chance for career and technical ed to 
demonstrate the academic skill and give credit for that 
academic content through cross-crediting as a method of 
delivery, other activities around that. But the biggest skill, 
when parents come in, is--my last 7 years as a director of a 
skill center in Tumwater, at New Market--parents would come in, 
and they would say, ``Johnny's not doing too well, so we're 
going to bring him over here and put him into one of these 
programs.'' Their parents may have only known about carpenter, 
plumber, cook, or mechanic, and that was their perception of 
that. But the student's perception was more around the 10 
highest growing occupations: the healthcare, the clinical 
scientific pieces, the computer science, the things that 
engaged him. The skill piece there is one piece, but then the 
knowledge gap is the other piece about what's available for 
both parents and students, is probably the largest gap that, as 
a educator, we find.
    Senator Murray. Mr. Allen, you----
    Mr. Allen. Yes, just real quick, on the soft skills, I'd 
just like to report, I checked with our vice president, who--we 
were in a hiring frenzy for 3 years, at all levels. There's 
clearly a gap, in the last 20 years, especially, with 
communications skills. The point is, the people that do well, 
no matter if you're a machinist or an engineer or an apprentice 
or a carpenter, the best--the people that are the most--have 
the best ability to write, to present their position, to 
communicate--and I think that goes back to school's fundamental 
fear of teaching a lot of the softer skills, even the 
vocational skills, because the maths and sciences has been such 
a--with Google and Microsoft and Intel and Dell and all these 
guys, there's this huge illusion on math and science, not that 
it's not important, but I'm telling you, we're hiring--this is 
our vice president--we hire best available athletes. She's--
what she means are people that are sitting in the interview 
that are interested and enthusiastic and can communicate 
themselves. I go to my son's high school, Bellevue High School. 
I asked the principal last year, I said, ``How many kids take 
debate? How many English classes actually have group working 
sessions where everyone has to speak and present their 
position? How much of that stuff 's going on? '' And he said, 
``Not enough.'' And I think those are the soft skills I've 
seen.
    Senator Murray. On this side.
    Mr. Drewel. There seems to be one new entry into the 
calculus, as well, and that's--this is the subject of 
creativity. I've just heard from a number of employers at all 
levels--and I think we used to call it something like ``Send us 
people who can think,'' which sets the bar relatively low. 
But----
    [Laughter.]
    Mr. Drewel [continuing]. This idea that you have the 
ability to be creative and that we provide an educational 
environment as you come up through the learning process, that 
there is some value in this creativity, whether you're hanging 
a line or whatever the issue might be. We're hearing that more 
and more. We're also hearing----
    Senator Murray. Are we losing that in our education 
system----
    Mr. Drewel. Pardon me.
    Senator Murray. Are we not teaching that? Are we losing 
that in our----
    Mr. Drewel. Again, I don't know enough about this subject 
matter. I would defer to the experts. But what we're hearing is 
that people need to think differently about today's problems in 
the workforce. To do that, they have to have come from an 
environment that spawns this sense of creativity, that there 
are other ways to get to the end solution, other than the way 
we've been doing it for the last X number of years. I don't 
know if there is a creativity bend in the K-12 system or not.
    Mr. Aultman. I can respond to that. There was--as one of 
the outcomes of Washington Learns last year, creativity was one 
of the goals that was added to that, so that all of your 
applications, if it's in a healthcare area, you might be 
solving a world issue, or you take that on as a real-life 
issue, just like was mentioned earlier. If it's in the computer 
science area, it may be a game design that is combined with 
math, science, and graphic arts. DigiPen Institute of 
Technology just had their first graduate out of a high school 
program. The student had about 3 months to decide which job he 
wanted as he graduated. It was one of those tough decisions, 
which one best fit his need. So, creativity is coming back in. 
It's not just the drill and application aspect of it.
    Senator Murray. I would tell you that this is a little bit 
disconcerting to me, being on the committee that is going to 
reauthorize No Child Left Behind, creativity has not been a 
word that has been put on the table. I appreciate that 
knowledge. Thank you.
    Other comments? Rick?
    Mr. Bender. Senator, just one comment. I think there's been 
a number of studies done, though, that a good teacher in the K-
12 system can tell you by the third grade who your dropouts are 
going to be. That's why I think that the Governor's initiative 
on early childhood education, and really concentrating on those 
early grades--because once they start falling behind in those 
early grades, those are the students who are not going to make 
it through the system, and they're going to have a tough time 
getting a good family wage job with benefits. I applaud those 
efforts, because I think we really need to start concentrating, 
focusing on, and figuring out ways to get those young children 
up to standard so they can make it through the system. 
Otherwise, if you just pass them on from grade to grade, and 
they can't read or write, or don't have the basic math skills, 
they're not going to be able to make it in any kind of 
technical or apprenticeship program, let alone go on to 
college.
    Senator Murray. Yes, Mr. Seaman.
    Mr. Seaman. Thank you. I agree with the folks here that 
talked about the soft skills and the work readiness skills as 
being necessary, especially for entry-level positions. I think 
it goes beyond that, when I look at this, too. Because I also 
agree with the folks that say we need to do more, in terms of 
the academic and technical skills. But I would say that those 
work readiness skills, those soft skills that make a person 
equipped for an entry-level position--say at my plant--are 
exactly the same skills that the student needs to learn the 
academic skills. If they don't have the communication skills, 
the teamwork skills, the sense of responsibility, you're not 
going to be able to teach them the academic skills.
    I think all the young people need these work readiness 
skills. I think it's the foundation of everything.
    Senator Murray. Dr. Mitchell.
    Mr. Mitchell. Yes, I just want to go back--I know we talked 
about this whole math problem, but I just don't want us to get 
off of that, because, when I look at many of our students, 
students coming in from high schools and students trying to get 
out, we have so many students, that they might have a B average 
in English and the other skills, but they cannot do the math. 
Some way--and I agree with Rick, it would be better if we had 
that at K-12, where they would grasp the math at an early age. 
But that's a huge challenge for us. Because there are so many 
students that come in that are taking developmental math and 
spending a lot of time in that. I think that's something that 
we really need to concentrate on.
    I agree with Rick, too, that it should be more of applied 
math, but, wherever you go in the industry, you have to know 
some math. We have to find a way to improve the teaching and 
learning in math.
    Mr. Harrison. Senator, this is playing out right now in the 
discussion over meaningful high school graduation requirements. 
It's being voted upon by the State Board of Education, the 
newly reconstituted board. The discussion is over third-year 
math and whether there is an advanced algebra alternative that 
is rigorous and relevant and meets curriculum standards, and 
how those would be reviewed. It's what the workforce community, 
education community, and corporate community is working on 
right now. The Perkins connection, of course, is, you've 
tightened, in reauthorization, a lot of the focus of Perkins 
and ended up making resources available for programs of study 
and curriculum improvements, and we're trying to use some of 
that money here to work on what that third year looks like, 
because it's so critical in all these discussions.
    Senator Murray. Carlos, can I come back and ask you--you 
were saying that some of the students--and J.D.'s a good 
example--are beyond what even the colleges are teaching, or 
high schools are teaching. Can you talk a little bit about some 
of the skills you see that we're missing, as an employer?
    Mr. Veliz. I agree with the soft skills, and that's why I 
wasn't commenting, because these were good comments on the soft 
skills. The only one that I could have added to that was 
industry-centric. The education they're receiving on a daily 
basis, is it industry-centric? Yes, we had, landscapers and 
plumbers or electricians, but again, it was very minimal, or 
things that weren't a part of what our core competency is. In 
my opinion, I think those industries like that are good in some 
other State--Idaho or Wyoming or something like that--where 
maybe there's not a whole lot of industry, like Washington 
State. I think that the fact that the students are kind of 
being held back--or not coming out with soft skills--is an 
issue, but it's also being fueled by the lack of--and we get 
back to the very beginning here--is lack of inclusion, because, 
again, there has to be some excitement of ``why I'm here 
today'' at this institute or at the school or what have you. 
When I have students every year that have come through our 
company--and I think we had, what, five last year? About five? 
I think we probably average four to six students a year that 
come through our----
    Senator Murray. Now, do you go out to the high school to 
find those students or----
    Mr. Veliz. Middle school.
    Senator Murray. To middle school.
    Mr. Veliz. Middle school. Every single year, I have two 
middle schools run about a dozen or so students through the 
summertime, and we have two sessions, so we have about 24 to 30 
kids come through our office, and we sit there and try to 
understand where they're at, where they're going, and what 
their passion is. Then we follow them, or we invite them to our 
Student of Color Conference that is being held at the Everett 
Community College that we started 5 years ago. It's 
interesting, because here we created this program called the 
Student of Color Conference, where we give out scholarships and 
we invite, all these kids from the local high schools and 
middle schools. We have great sponsors. Our hat goes off to the 
Boeing company, Microsoft, and Starbucks. But isn't it amazing, 
though, that we have to create this Student of Color 
Conference, that probably should have already been in place by, 
maybe, the career center, reaching out to all these 
communities? But yet, it takes two individuals to reach out to 
500 kids in the local county to bring them in.
    Again, I think it's part of that inclusion, of knowing what 
your assets are in the community, and then plugging into them. 
I just don't think we're doing that. That kind of goes hand-in-
hand with these lack of soft skills that they have, coming to 
us. We spend our time trying to go out to the middle schools--
we just went, a couple of weeks ago, to a high school and 
spoke, together, by an invite of a teacher that's seen the 
interest of what we were doing. And they said, ``You know, 
these guys, they're not a large company, they're a small 
company, but they're sure interested in supporting''----
    Senator Murray. J.D., how did you hear about this? How did 
you get involved in this?
    Mr. Osborn. Carlos came to my Intro to Engineering class my 
first quarter at Everett Community College, and gave a speech 
about what his company was doing. I personally wanted to be a 
designer, so I chased him out the door and grabbed his business 
card, sent him an e-mail the next day, got invited in for an 
interview, and then got a job.
    Senator Murray. All right. So, you were self-promoting 
yourself.
    Mr. Osborn. Yes.
    Senator Murray. Let me turn to Meisha. You've described to 
us a very rough beginning to your career, and some really 
difficult challenges that you overcame. There's a lot of young 
people out there exactly like you. A lot of them. You had a 
little bit of personal gumption to get to where you are. How do 
we reach all those other young people who are just like you out 
there?
    Ms. Nash. I don't know. I think that a lot of information 
is really just not out there. I had no idea that I could return 
to school after getting my GED. I happened to pick up the 
newspaper one day--and usually I don't pick up the newspaper, 
but----
    [Laughter.]
    Ms. Nash [continuing]. I did, and I saw that article, and 
it was really interesting to me. I don't think that the 
information is out there. I think a lot of kids don't know that 
they can come back after they've been out for periods of time.
    Senator Murray. What would have been a good way to reach 
you if you hadn't lucked out and read a newspaper one day?
    Ms. Nash. I'm really not quite sure. I don't watch TV, 
either. But a lot of people do.
    Senator Murray. So, we need to do a better job of 
communicating?
    Ms. Nash. Yes.
    Senator Murray. I think Carlos said it--of reaching out and 
finding those kids, and picking them up. That takes----
    Ms. Nash. Yes.
    Senator Murray [continuing]. Individual work, right?
    Ms. Nash. The information really just isn't out there for 
random people. You have to really be looking for it to know 
it's there.
    Senator Murray. David, talk to us a little bit about how 
you found your path here.
    Mr. Steinhoff. Well, it's exactly like how he said. You go 
into the career office, all you'll see is college brochures, 
this, that, and your technical and your vocational and your 
apprenticeship offers are kind of shoved in the back, covered 
in dust, and----
    [Laughter.]
    Mr. Steinhoff [continuing]. Two years old. It's exactly how 
he says, you've got to go in and you've got to look for it, if 
that's what you want.
    Senator Murray. Is that how you----
    Mr. Steinhoff. And that's----
    Senator Murray [continuing]. Found the program?
    Mr. Steinhoff. Yes, that's exactly how. I went into the 
career office looking for a job. I knew I didn't want to do 
McDonald's and didn't want to work at a grocery store, so I 
wanted something a little bit more. They pulled out these three 
little brochures that were in the back. There was Bonney Lake 
Power and a Bates program, and then the Get Electrified 
Program. Like I said, that was a year old, so it's really about 
getting the programs out there. I've heard that it's gotten a 
lot better and that they're--like, mainly the union, the IBEW--
is sending a representative to the schools and preaching about 
the apprenticeship programs and the offers that they have.
    Senator Murray. When do we need to start doing a better job 
of reaching out and finding students and helping them find an 
alternative path to success?
    Mr. Steinhoff. I'd have to say probably the middle school. 
I think that that's the perfect time to, before they start 
realizing everything and what they want to do. It's a good time 
to put the idea in their head, because, as I said, it's all 
about college, from the high school I went to, and even after I 
was in this program, they called me into the office and asked 
me why I didn't take my last college requirement. And I said, 
``I'm not going to college.''
    Mr. Bender. Senator, if I could comment.
    Senator Murray. Yes.
    Mr. Bender. One of the problems that we're facing in this 
country is, there's a stigma that, somehow if you don't have a 
4-year degree or higher, you're a second-class citizen. We've 
got to overcome that. I think we need to get the information 
out there that there are some tremendous opportunities for 
young people that pay a good family wage job with healthcare 
and with pension, that you can live a good life. The other 
issue, too--what I find is so frustrating--when I'm asked to 
speak to the K-12 system about opportunities. They'll send me 
to an alternative school, and they won't let me speak to the 
main student body. I'm very happy to talk to alternative 
schools; I want you to know that.
    [Applause.]
    But I would like to be able to talk to the main--I mean, 
the streamline--the mainline students and let them know what 
opportunities are there out there for young people who may not 
want to go on to a college, but want to have a good career down 
the road.
    Senator Murray. Mr. Allen, I heard that figure of 90,000 
that you were talking about. Tell me how we do this better.
    Mr. Allen. Well, exactly, I was going to say the same 
thing. It's in the counseling office. Middle school is a good 
place to start getting kids out to the shops and out to the 
businesses and see what happens in the kitchen of a restaurant. 
I mean, there's all these great culinary jobs coming out of 
here, and it's just--I'm telling you, I sat with my son's 
counselor, in ninth grade--they gave it by alphabet, so you 
know who you got--and it dawned on me, I've got 1,000 employees 
without 4-year degrees, and probably 200 of the 500 office 
workers don't either. And I'm sitting here, and they're not 
saying one word about what you're talking about or what you 
just talked about. I just can't believe we can't institute in 
this country a dual opportunity counseling option so the 
counselors do--maybe you bring in counselors that specialize in 
tracking the trades and the career paths.
    The last thing I want to say is, it is unfair--the stigma 
is forever--it is unfair to say that 4-year equals career, 
because I have lots of friends now whose kids are calling me, 
wanting to come down for an interview, that have a 4-year 
liberal arts degree from a small East Coast college. Now they 
want to figure out what the heck they want to do, and I don't 
think that that's wrong, either, doing that, if you opened your 
mind. But I'm saying we need to get the counselors and the 
educators having the mental paradigm shift and not--to 
destigmatize things.
    Senator Murray. Mr. Allen, so you know, I've introduced 
legislation, and been working on it for 4 years now, trying to 
get academic counselors into our middle schools to help 
students find a career path, because most of our counselors 
today are focused on the social challenges that they have 
within their schools, as they should be. I think we need a 
completely different person who's focused on academic 
counseling.
    Mr. Drewel. Senator, we have a wonderful opportunity in 
this State--it's Senate bill 5731. It was a result of the work 
that Prosperity Partnership did. The quid pro quo for the $93-
million investment in the very programs that we're talking 
about is that we have to come together and develop a program 
of, How do we get into the middle schools, how do we get into 
the high schools, how do we have these opportunities? I'll 
certainly talk with your staff about that.
    Senator Murray. OK.
    Carlos, you had something you wanted to add.
    Mr. Veliz. Thank you, Senator.
    Again, I just want to add this, just for the record. The 
equation that I believe we should probably look at is that 
small business is the asset to, in my opinion, our educational 
system. The corporation's asset is a small business. If we can 
find a way to improve that to the small businesses that are 
here, and that will be listening or reading--feed our pipelines 
so we can go do our due diligence in the community, the way we 
enjoy doing it, because we are closest to the community where 
we live. That big building in the community, that Mr. Drewel 
was talking about, we feed that. We have to feed it, because 
those are our employees, and those are our families that we 
associate with daily. But we also need the support of that 
pipeline from the corporations, and since you're a part of that 
committee, you know the government contracts that are available 
out there for small businesses that--and even ourselves that 
are here--we're too many thousands of miles away from DC. to 
have access to those. That's obviously a different topic. But, 
again, those are the things that will help us be better 
stewards to our local community.
    Senator Murray. David Harrison, you had a comment?
    Mr. Harrison. Senator, I just wanted to note that we 
sometimes make it sound like these pathways are distant from 
each other. Ms. Stadelman's ``both/and'' comes to mind again. 
That is, the career and technical pathway and the B.A. pathway 
are near each other and have to be caused to intersect when it 
is the preference of the learner, going forward. We have to do 
a better job of creating the consistency of curriculum to make 
that possible over--that's what, of course, the applied 
baccalaureate seeks to do, and we have to make it possible--for 
someone who's selected a technical training path to circle 
back, if they wish, to the baccalaureate, and you need to 
expect more from us in that regard, too.
    Senator Murray. I'm going to go to Don and then to Dr. 
Mitchell.
    Mr. Gulliot. First of all, I'd like to congratulate the 
young gentleman down there that joined our ranks with IBEW. I 
also admire his courage for taking the position that, ``I'm not 
going to go to college. There's something else I want to do.'' 
There is a valuable need for apprentices in our program. I can 
certainly assure you of this; a bachelor's degree, associate 
degree, that does not make you a journeyman in our trade. 
You're going to have to go through an apprenticeship program, 
simply because of the hazards of our trade and the on-the-job 
training that we have to do--and you have to be standing next 
to a journeyman to do that. I have a real fear in our industry, 
the electrical industry, because of the manpower shortage, that 
the employers are going to start pushing to shorten the 
training program. That bothers me a lot, because they have 
failed to train.
    But, once again, not everybody wants to go to college, and 
some of them can't afford to go to college. There is a family 
wage job out there, if you get into an apprenticeship program.
    Senator Murray. You've identified a concern of mine, as we 
reach this crisis where we need skilled employees in a lot of 
different places--air traffic controllers, for example, who are 
retiring dramatically, and we still haven't trained 
replacements. We don't want to get to a point where we're 
rushing education and skills and creating unqualified 
employees.
    Mr. Gulliot. Right.
    Senator Murray. Putting all of us at risk in many different 
ways for a lot of different reasons. We have to be very careful 
of that.
    Mr. Gulliot. Nationwide, Senator, we're probably--in our 
journeymen classification for the utilities, we're 90,000 
people short, and we need them today. We can't fill the jobs 
today.
    Senator Murray. And we don't want somebody untrained doing 
that.
    Mr. Gulliot. That's true, absolutely.
    Senator Murray. Dr. Mitchell.
    Mr. Mitchell. Well, David was trying to say something, so I 
wanted him--you'll have your comment, and then----
    Mr. Steinhoff. I was just----
    Mr. Mitchell [continuing]. I'd like to go after David.
    Mr. Steinhoff. I was just going to say that the IBEW 
program that I went through also offers the option to go to 
Pierce College and pick up your A.A. degree, as far as your 
electrical training counts as all your core classes, and then 
you just go back and take a couple of math and English classes 
and you can get your A.A. degree through the union.
    Senator Murray. So, it's not an either/or----
    Mr. Steinhoff. Yes.
    Senator Murray. Right.
    Dr. Mitchell.
    Mr. Mitchell. Yes. I had a comment. Earlier, when we opened 
the comments, we were talking about some of those students that 
are performing the lowest, and many of these are African-
American students, Hispanic students. It goes back--when we 
talk about this negative stigma attached to vocational or 
professional occupation programs, that still dwells within the 
African-American community, as well. An example of that--even 
the church that I attend--and we give scholarships out each 
year, and I sit back--and so, if a student got a scholarship 
and they're going to Seattle Central or South or North, get a 
little applause, and then if they're going to the University of 
Washington or Harvard, they get a loud applause. A lot of that, 
frankly, is because--I know when I was in the Seattle school 
district and I wanted to go to the University of Washington, 
and the counselors were pointing me to a vocational school--
many of the parents from that age, or some of the kids, react 
negatively to vocational programs and don't realize the wealth 
that's in it, the salaries that you can make. And so, we have a 
job to do, not only stigma within the schools, but within our 
community and the parents. The parents make a big decision as 
to the direction of where those students are going. That's one 
of the things that I've tried to do personally, as well as our 
schools, is get that word out there that these are great 
professions to go into.
    Senator Murray. Right.
    Well, we are at the close of the time that we've been 
allotted here, and I have to say this has been a very 
fascinating and dynamic discussion. I'm excited by the fact 
that a lot is going on in our State. I think we are really 
beginning to focus in a very positive way on bringing together 
our businesses, labor, students, and our education system to 
address future opportunities.
    My goal, at the end of the day, is for all the young people 
out there to know that we want each one of them to be a success 
and that there is a way for them to be a success in a career 
that is important to them. We all have a lot of work ahead of 
us. We've identified a lot of the challenges ahead of us. We 
have identified a lot of the paths that we need to start 
looking at. I certainly will be using this hearing, back in 
Washington, DC., to look at ways that the Federal Government 
can better support what is happening here, be a better partner, 
and move us in a better direction.
    This is just the first of several hearings that I intend to 
have on this issue as chair of the Employment and Workplace 
Safety Subcommittee. I hope that the excitement I feel today 
from all of our participants is something that will help 
motivate our entire country to really make this a priority. I 
intend to use my position to help with that.
    I want to thank all of our panelists again today for your 
participation.
    [Applause.]
    I want to remind everyone who's here that the record will 
remain open on this committee. We appreciate anybody's 
willingness to write a comment. Again, my staff is outside, 
ready and willing to take those comments.
    I especially want to thank Bill Kamela, who's back here 
behind us, my staff from Washington, DC., who's helped organize 
this. Bill and his staff have done a tremendous job in putting 
this hearing together, and will continue to work on this issue. 
Bill, thank you, to you and all of your staff.
    With that, this official hearing is adjourned. Again, I 
want to remind all of you, your participation is important. 
Please don't hesitate to comment.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

  Prepared Statement of Dave Johnson, Executive Secretary, Washington 
         State Building & Construction Trades Council, AFL-CIO
    Honorable Chairwoman Senator Murray and members of the committee, 
for over 50 years the Washington State Building and Construction Trades 
Council has represented the interests of building and construction 
trades affiliates in Olympia and within local communities. Our 
affiliate unions have worked together to build communities and educate 
highly skilled craftsmen and tradeswomen for over a century throughout 
Washington. This effort exists within each State across the Nation as 
well. Throughout history and in classrooms and on the job today, expert 
professionals in their craft continue to educate youth through 
apprenticeship in construction.
    Unfortunately, over the past two decades apprenticeship and careers 
in construction have suffered an unfair negative image, and at the 
least, been forgotten as a career path for college-level attainment 
that provides stability and value for individuals and families within 
our communities.
    Quality constructors, both as skilled crafts and contractors, are 
local economic infrastructures that must be maintained to actually 
construct local public and private development and improvements. In-
sourcing workers and management to perform these vital functions simply 
weakens a State or communities ability to thrive. Any financial gains 
recognized would be short sighted lacking economic strategy; now 
obvious in our difficulty to supply quality contractors or sufficient 
numbers of skilled labor to meet workforce and infrastructure demands 
before us today and in the future. In 2005, the National Bureau of 
Labor Statistics released a report projecting that nationwide 185,000 
new apprentices would be needed per year for the next 10 years to meet 
demands of our industry. Washington's future needs for skilled 
constructors are expected to be greater than the national average.
    Successful education partnerships have been in place between 
management and labor in the construction industry through Joint 
Apprenticeship and Training Committees (JATCs) working together to 
educate the next generation with the latest techniques and technologies 
in our construction professions. Affiliates of the Building Trades and 
signatory Contractors have worked diligently to reconnect with K-12 and 
our community college systems and universities to return construction 
and the trades through apprenticeship to the minds of educators, 
parents and especially students. We support our Career and Technical 
Education community and their efforts to help us rebuild the bridge for 
students to transition into rewarding careers within our industry.
    Washington State is the first in the Nation to systematically build 
into law apprenticeship utilization statutes that require the use of 
apprentices on public works construction. The attached chart indicates 
a direct correlation between the enactment of these State laws and the 
increased number of apprentices entered into State-approved 
apprenticeship programs. In fact, most of our JATCs are now working at 
capacity year round filling educational facilities with the newest 
generation of quality constructors. The efforts of the JATCs are 
primarily private schools, funded by labor and employers, affording our 
facilities, educators, equipment, tools and curriculum. Support from 
government funding is appreciated, but most programs feel greater 
support from our State and Federal Governments, as partners in 
community and economic development, should be increased for qualified 
apprenticeship programs. Apprenticeship is a proven educational and 
workforce investment worth increased support.
    Federal WIRED Grants are one example to bring best practices 
together to support economic development within regions. We wisely 
utilize the support from our Federal and State Governments, but we'd 
welcome increased partnerships to support our JATCs. Apprentices young 
and older have transitional needs to succeed in the trades; and 
addressing the retention demands of apprentices on JATCs is an issue 
that could be further explored with increased support for students of 
all income levels. Raising a family within the demands of our industry 
is not easy. Understanding that wages are good as long as our members 
are working and the need to keep projects in the works to maintain 
quality constructors within local communities must remain in view to 
provide solutions. In closing, supporting the awareness and value of 
our industry's successes for individuals, contractors and community and 
economic development to K-12 and higher education communities also 
needs support from government to inform the unaware and to change the 
negative perspective that currently exists in some districts.
    I invite you to visit our Web site at www.WaBuildingTrades.org to 
make contact with our local JATCs, to view the DVD message marketed to 
increase student awareness of apprenticeship and to take a copy of our 
``Apprenticeship: The Original Four Year Degree'' packet to your high 
school to help reach potential quality constructors within your 
community.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Prepared Statement of Pat Martinez Johnson, King County 
                         Work Training Program
    I am a youth educator and employment professional with 30 years of 
experience working with at-risk youth. I work for King County and have 
been a program designer and manager and a partnership builder for 20 of 
those 30 years. I currently coordinate a learning center--Learning 
Center North. Learning Center North is a collaboration of Shoreline 
Community College, King County Work Training, Seattle-King County 
Workforce Development Council, and the Shoreline School District. The 
center effectively reengages 16-21-year-old high school dropouts and 
helps them move on to advanced training and/or employment.
                     effective dropout reengagement
    1. Approximately 30 percent of the youth who start high school do 
not graduate. The options open to these dropouts are limited. If these 
youth are not reengaged in education, our potential and needed 
workforce is severely depleted. We lose skill, productivity, and 
potential at an enormous economic and social cost. This situation is 
exacerbated by the astronomical costs of the services that high school 
dropouts often end up needing in terms of public assistance, mental 
health services, or incarceration.
    2. Many high school dropouts will not return or cannot return to 
high school. This can be true for many reasons: Their skills are too 
low; their behavior records too severe; their lack of success too 
personally overwhelming; and/or their personal barriers too great. 
Bottom line, at some point, they are too old with too few credits to go 
back to seek a high school diploma. Again, remember the 30 percent 
number.
    3. Effective programs exist that offer GED Plus. These are programs 
that usually involve a community-based organization, school district, 
or college as well as employers. Individualized instruction, case 
management or mentoring, a focus on basic skills remediation, GED 
preparation, and assistance in transitioning to college and/or work are 
provided. These programs offer the only hope for a significant number 
of dropouts who are not going to return to high school and are not 
ready for college.
    4. Workforce Investment Act (WIA), grant, and local funding are key 
funding elements for these centers but State Basic Education funding 
has to be the foundation. The major obstacle preventing the 
establishment and continued existence of GED Plus programs is ``No 
Child Left Behind.''
    5. ``No Child Left Behind'' (NCLB) says a GED is a negative 
outcome. Students who are reengaged in education, attain their GED and 
go on to short- or long-term training and employment are considered 
failures by the Federal standards of ``No Child Left Behind.'' School 
districts and States do not want these negative statistics.
    6. ``No Child Left Behind'' needs to be changed so that GED is 
either a positive outcome--as it is in federally funded WIA programs 
or, at a minimum, students who attain their GED's need to be taken out 
of the denominator for NCLB when dropout rates are calculated for 
schools, school districts, and States.
    7. A GED alone should not be used to measure student success. GED 
Plus programs should also be measured by the extent to which students 
make measurable gains in key basic skills areas and the extent to which 
youth transition on to apprenticeship, professional technical advanced 
certificate or degree programs, or to traditional college or 
employment.
    8. States and school districts need to be encouraged and sanctioned 
to build, support, and fund networks of GED Plus centers with public 
education dollars as the foundation and other leveraged funding and 
partnerships as key components. These should not replace all the 
critical efforts to prevent youth from becoming academically at risk 
and all the efforts in place to keep our youth in school through 
graduation and beyond. But the white elephant in the room needs to be 
recognized--not all students do or will get their diploma and we cannot 
afford to lose these youth either.
                    workforce investment act funding
    1. The Workforce Investment Act (WIA) youth program funds have been 
steadily deteriorating--year by year--for decades. These funds, and the 
programs that operate with these funds, are critical to supporting and 
helping low-income, at risk youth achieve key benchmarks in basic 
education, work readiness, skills training, higher education, and 
employment.
    2. WIA funding for youth needs to be maintained or, ideally, 
restored to the levels that existed under the Comprehensive Employment 
Training Act (CETA) or the Job Training Partnership Act (JTPA).
    3. Programs funded through WIA build and rely on partnerships with 
business, labor, school districts and higher education. These programs 
provide needed intensive support to youth with multiple barriers. They 
provide long-term follow up and transition services. Programs funded 
through WIA have to meet tough, specific performance measures related 
to employment and education and retention if they are going to continue 
to receive funding.
     Prepared Statement of Bob Markholt, Program Director, Seattle 
  Vocational Institute Pre-Apprenticeship Construction Training (SVI 
                                 PACT)
                              introduction
Need for a Skilled Construction Workforce in the Puget Sound Area
    The Puget Sound region is in a construction boom. Private and 
public construction projects are creating a huge demand for new 
workers. Projections from Washington State Employment Security Division 
suggest there will be about 10,427 annual job openings in Washington's 
construction industry over the next few years to 2014. According to the 
Workforce Board's recent survey, employers are having difficulty 
filling current openings. Among firms attempting to hire construction 
workers, 71 percent had difficulty finding qualified job applicants--
the highest reported percentage of any sector.\1\
---------------------------------------------------------------------------
    \1\ From High Skills, High Wages 2006, Washington Training and 
Education Coordinating Board. The full report is at www.wtb.wa.gov/
documents/hshw06_fullreport.pdf.
---------------------------------------------------------------------------
Need for High-Wage Career Training in the Puget Sound Area
    An increasing number of people are left out of the economic 
vitality of our region. This is part of a national trend (the growing 
income gap between the very rich and the rest of us) but it is also due 
to regional factors such as the high cost of housing and other living 
expenses, and a large high school drop out rate.\2\ Additionally, much 
of society and the educational system are laboring under the false 
assumption that everyone will go to college. This has never been true 
in the history of the United States. Traditional forms of training, 
such as apprenticeship, are not touted as viable career paths in our 
schools, and most students do not know about the high-wage, high-demand 
career opportunities they provide.
---------------------------------------------------------------------------
    \2\ Thirty-three percent of the high school class of 2001 did not 
graduate in Washington State. Washington State High School Graduation 
Rates, Manhattan Institute for Policy Research, 2002, funded by the 
Bill & Melinda Gates Foundation. http://www.manhattan-institute.org/
html/cr_27.htm.
---------------------------------------------------------------------------
SVI PACT Construction Career Pathway
    Pre-Apprenticeship Construction Training (PACT) began in 1998 to 
prepare its graduates to enter construction trade apprenticeships. Over 
150 graduates have become carpenters, electricians, laborers, painters, 
sheet metal workers, iron workers, cement masons, and plumbers.
    Before they enrolled in the PACT program, nearly all were very poor 
and unemployed or marginally employed. Now, they are working at leading 
construction companies such as Mowat Construction, Hoffman 
Construction, Lease Crutcher Lewis, Merlino Construction, and Absher 
Construction. These companies will attest that PACT provides well-
trained, dedicated and reliable employees. There are countless stories 
of PACT graduates whose lives have literally been turned around by this 
program. They are now paying taxes and building our city.
    PACT has achieved these results by addressing our students' 
barriers to entry into construction trade apprenticeships and by 
forging strong partnerships with the apprenticeships, unions, 
construction companies and the community.
    Since the majority of PACT's students are minorities, opening doors 
within the construction industry for people of color has been critical. 
Great strides have been made in this regard due to strong leadership in 
the building trades and a strong job market. Another key factor has 
been EEO and apprentice utilization requirements on publicly funded 
projects such as Sound Transit, Federal Highway Administration 
projects, and King County's Brightwater Sewage Treatment Project.
                               pact facts
Program Background
    <bullet> 90 percent of students graduate. Ninety percent of 
graduates enter a construction apprenticeship program.\3\
---------------------------------------------------------------------------
    \3\ Statistics from 2004 through the end of 2006. In 2004 the 
program was reconfigured to its present length and curriculum.
---------------------------------------------------------------------------
    <bullet> Program training is focused solely on preparation for 
construction trade apprenticeships.
    <bullet> Program is comprehensive: recruitment, training, support 
services, and placement are all done within the program.
    <bullet> Program works with students to remove barriers to 
employment such as lack of a driver's license, poor math skills, poor 
job skills.
    <bullet> Program expanded in January 2007 increasing capacity by 50 
percent.
    <bullet> The retention rate of PACT graduates in the building trade 
apprenticeships is 10 percent higher than the average.
Students
    <bullet> 100 percent low-income
    <bullet> 10 percent female, 90 percent male
    <bullet> 26 percent immigrants
    <bullet> 43 percent have been incarcerated
    <bullet> Asian/Pacific Islander: 7 percent
        Black: 72 percent
        Hispanic: 7 percent
        Native: 4 percent
        White: 7 percent
        Other: 1 percent
Advisory Board/Partners
    <bullet> PACT Advisory Board is made up of representatives from 
construction companies, labor, and the public and non-profit sectors.
    <bullet> Articulation agreements are in place with most 
apprenticeship programs.
    <bullet> Community and support service partners: Therapeutic Health 
Services, Unity House re-entry housing, TRAC Associates, DADS Program, 
Urban League, Apprenticeship Opportunities Project.
    <bullet> PACT graduates are the largest source of recruitment.
Challenges
    <bullet> One-third of program's cost is provided by community 
college district. The program must raise the remaining \2/3\ of program 
costs.
    <bullet> Keeping pace with construction industry demand for new 
workers.
       federal support for the construction trades career pathway
    The Federal Government can provide support for low-income people 
moving into high-skill and high-wage careers through a variety of 
policy and funding measures:

    <bullet> Funding for training, including pre-apprenticeship 
training,
    <bullet> EEO & apprenticeship requirements on federally funded 
construction projects, and
    <bullet> Confronting the prevailing myth that everyone is going to 
college and providing leadership on post-secondary training, such as 
apprenticeship, that leads to strong skills and good paying jobs.
                                 ______
                                 
             Attachment.--John Collins, Journeyman Laborer

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Prepared Statement of Shepherd Siegel, Seattle Public Schools
    Career & Technical Education is 21st century education. It will 
increase the number of youths who live meaningful lives, and it will 
rescue and strengthen our economy. Thus, all educators must bring fresh 
eyes to our calling, and to this pedagogy that serves virtually all 
learning styles. Career & Technical Education is about our young 
people's quest to continue building the world. It is about ethical 
business that serves our great society; human services that nurture the 
caring relations we all depend upon; media that increases communication 
and decreases distance in the global village; and the science, 
engineering & industry that will preserve our environment, feed our 
poor, house and transport us for all generations.
    Who are the advocates for Career & Technical Education? They are 
citizens and parents, educators and employers, colleagues and mentors 
who want the best secondary education and the best and most meaningful 
lives for high school graduates. Not a self-serving special interest 
group but servants of community, who work for social justice that does 
not come without a foundation of economic justice. Not advocates of an 
obsolete or archaic system, but those ready to rip the shroud of an 
obsolete and archaic stereotype that gives way to a substance and style 
of education, re-tooled and reborn, ready to play a major role in 21st 
century secondary public education.
    Two arguments dominate the landscape: CTE as alternative learning 
and dropout prevention, and CTE as the key to economic revival. Both 
arguments have merit, and together the poignancy that the kids in our 
school systems are pushing out are the ones who will save our economy 
and redeem our democracy.
    While State after State moves into an educational landscape of 
standards based on the needs of humanities-based baccalaureate 
institutions (and subsequently come to doubt these high-stakes one-
size-fits-all approaches), the emerging realization is of the need to 
offer students varied modes of learning, without relapsing into a 
tracked environment. The most reliable tradition of secondary 
alternative learning--one that with continuous improvement can provide 
all students with the context and hands-on approach that will lead them 
to academic and adult life success--is Career & Technical Education. 
The stories of students who finally mastered math, learned to write and 
speak clearly and with purpose, found a reason to stay in school, put 
history in a meaningful economic context, discovered passion, pride in 
product, and their career pathway . . . are endless. Leading models of 
small schools like The Met in Providence, New Jersey, synthesize the 
best of the independent study model of alternative schooling and the 
context and engagement of Career & Technical Education. It's a powerful 
combination with implications for every high school. And just under the 
surface of these academic successes is the true dynamic of the 
``holding power'' of CTE.\1\ That dynamic is fueled by the replication 
of our local community on the high school campus. That is, our students 
arrive in exceedingly diverse packages, and our teaching corps must 
reflect that diversity, not only as men and women, not only as being 
racially and culturally diverse, but our teachers must also represent 
the diversity of learning styles, and of the intellectual, visceral, 
kinesthetic, and streetwise wisdom that CTE teachers, schooled less so 
by universities and more by industries, bring to our high school 
students.
---------------------------------------------------------------------------
    \1\ See University of Minnesota, St. Paul, National Research Center 
for Career and Technical Education. (2001). Career and Technical 
Education in the Balance: An Analysis of High School Persistence, 
Academic Achievement and Postsecondary Destinations. Retrieved August 
19, 2005, from the National Dissemination Center for Career and 
Technical Education Web site: http:
//www.nccte.org/publications/infosynthesis/r&dreport/
CTE_in_Blnce_Plank/CTE%20in%20 
Blnce_Plank.html.
---------------------------------------------------------------------------
    The second argument, equally valid, is that our country needs to 
increase the amount of and access to Career & Technical Education in 
order to reclaim jobs that are currently going offshore; to regain 
primacy in innovation and engineering; and to provide employers in all 
industries with workers who know how to craft, repair and build things, 
to care for and educate our young, to care for the environment and feed 
the hungry, to practice ethical and competitive businesses, to make our 
national economy strong and replete with meaningful and well-paying 
jobs. This ``vocational'' argument is often rejected out-of-hand, based 
not on data and research, but upon the folk belief that CTE represents 
a form of tracking, that it is racist in its 19th and 20th century 
roots (i.e., following the Industrial Revolution).
    It is a life-and-death issue for our economy in particular and 
American society in general that this misunderstanding be resolved, 
that we learn, as other industrialized nations have learned, that 
dignity, gainful employment, intellectual challenge, and social justice 
are all to be found in the pursuit of non-baccalaureate educational 
paths that lead to anything from a career in automotive technology to 
child-care, from small business to teaching, from information or 
engineering technology to farming or sign language interpreting.\2\ 
There is nothing racist in that. Quite the reverse. When vocational 
education makes a promise to oppressed minorities and then does not 
deliver on that promise . . . that is racist, and that was indeed the 
case in the early to mid-20th century. That is no longer true, and it 
is the responsibility of every CTE educator to ensure that it is never 
true again. Today, it is Career & Technical Education, CTE, that can 
and will deliver diversity and equity, and narrow the educational, 
skills, and citizenship gaps between the races, men and women, rich and 
poor, those with and those without disabilities.
---------------------------------------------------------------------------
    \2\ These pathways are frequently referred to as ``sub-
baccalaureate'', a more than unfortunate term. So long as the sub-
baccalaureate career path carries the cultural stigma of a ``less 
than'' career course, we will continue to have a ``sub-Asian'' and 
``sub-European'' economy.
---------------------------------------------------------------------------
    A strong and sustainable economy will require millions of educated 
technical workers, child-care providers, schoolteachers, entrepreneurs, 
agricultural scientists, nurses, engineers, information technology 
professionals and the like. The myth that any kind of technical 
training focus at the secondary level repudiates educating citizens for 
active participation in a democracy, or that it ``dumbs-down'' literacy 
and numeracy skills has been disproved for decades by the success of 
European economies and nations who provide serious technical training 
to a populace more politically aware, more historically conscious, and 
more democratically active than Americans. Data consistently show that 
Career & Technical Education programs increase college enrollment and 
reduce dropouts, and do not negatively impact test scores.\3\
---------------------------------------------------------------------------
    \3\ Plank, S. (2001). Career and technical education in the 
balance: An analysis of high school persistence, academic achievement, 
and postsecondary destinations. Maryland: Johns Hopkins.
---------------------------------------------------------------------------
    In other words, our responsibility is to do more than deliver on 
the career-related skills and standards found in our curriculum. We 
must also ensure that graduates of our programs are finding adult 
success. That is the only real accountability measure that matters. 
State exams pale in comparison to the truly high stakes of our 
commitment to prepare students for an adult life well-lived and 
prosperous, with not a single life wasted.
    The way to accomplish this is through a rebuilding of our CTE 
programs in a manner that is fully integrated with the mainstream life 
of the comprehensive secondary school, or of each and every small 
middle or high school. Urban school systems have a unique opportunity 
to create varied, comprehensive, and robust CTE offerings that provide 
opportunities for all students, opportunities directly related to their 
adult lives as citizens, workers, scholars and lifelong learners. 
Unlike small rural or suburban systems, or a stand-alone small school, 
a large school system can create a full menu of CTE offerings, using 
economy of scale and making the most of the diverse interests and 
talents of an urban population. Unlike a vocational-technical center, 
technical high school, or regional CTE school, CTE in a large school 
system can be integrated with the academic life and educational 
pursuits of a heterogeneous population of students, reflecting the 
purpose and inhabiting the very highest ground of what a democracy can 
be: full mobility for student interest, full access to all aspects of 
an industry, full respect and dignity for all pathways that lead to a 
gainful and meaningful adult life.
    There is a vital conversation about why large school districts have 
not always taken full advantage of this opportunity, but my purpose 
here is more to present a plan for how, given the will of our 
community--teachers, administrators, leaders, families, employers--our 
public secondary schools can become just such a place of comprehensive 
opportunity for all students. To build robust CTE programming that 
serves all students, every CTE course must be closely associated with 
career pathways. Every CTE class must have the necessary relevance, 
rigor, relationships and results.
    When a critical mass of American educators are convinced that 
building such a CTE system is essential, we will need to find new and 
better ways to define Career & Technical Education, to put it into a 
language that leads to constructive dialogue and viable proposals that 
create the interdisciplinary teaching teams, the fun and valuable 
project- and community-based learning opportunities, and the 21st 
century high school that leaves no child without an exciting and 
meaningful future. There is a vital place for CTE in every high school. 
To that end, I am proposing a four-approach model of Career & Technical 
Education. These approaches are anything but discrete: they overlap and 
commingle in a rich swirl of purposeful and focused education that 
leads students to their passions, their minds, and their purpose. And 
all of these approaches can be found in the five broad categories, or 
pathways, which CTE uses to deliver its content and as a taxonomy to 
help young people get a grasp on the adult world they will soon enter:

    1. Science, Engineering & Industry
    2. Health & Human Services
    3. Business, Marketing & Information Technology
    4. Arts, Communications & Media
    5. Agriculture and Environmental Science

                  approach one: industry certification
    This is a critical approach to Career & Technical Education. As our 
Nation's workforce and economy create new and more technical/
professional careers, high schools that invest in Career & Technical 
Education programs that grant marketable industry certifications will 
offer their students great benefits. This approach is the equivalent of 
what we in Washington State call preparatory CTE course sequences. This 
type of CTE provides context and specific outcome. These require the 
scheduling, counseling, equipment and facilities to sustain student 
enrollment over a 2- or 3-year period. In most cases, this provides 
students with advanced placement in community colleges. Research bears 
out that students in this pathway, contrary to popular belief, attend 
college at a high rate, and fare well in their careers and income 
levels. In 2005, Washington's State legislature began consideration of 
legislation whereby students could opt for certain industry-
certification course sequences in lieu of taking the State's 10th grade 
exam. Demonstration pilots are planned. Examples of CTE Industry 
Certification routes include Cisco Networking; tech prep and other 
higher education articulations; pre-teaching/child care; pre-
engineering (Project Lead the Way); and Automotive Youth Educational 
Systems.
            approach two: college and university preparation
    These are CTE courses that function as providing a context, but not 
necessarily an industry-specific outcome. In other words, these CTE 
courses engage and interest students through their real world 
relevance, but the measure of each course's worth is its ability to 
prepare students for State exams and entrance into baccalaureate 
institutions. Virtually all CTE taught to standards is excellent 
preparation for college or other postsecondary education or training. 
These are CTE equivalents of core academic courses. Students benefit 
from the career pathway interest they provide, and from the opportunity 
to exceed academic standards through alternative learning modes, and in 
alternative contexts. These courses will help to close the achievement 
gap, and students of a wider range of abilities will be able to 
successfully reach for a 4-year college education. More importantly, 
they will develop strong learning and thinking skills. This approach to 
CTE is best exemplified by school system initiatives to cross-credit 
CTE courses with core academic courses (Applied Math, Pre-
Engineering, Accounting, American Sign Language, Photography, Nutrition 
and Wellness, Graphic Design, Education, and Family Health are all good 
examples). The No Child Left Behind Act's definition of ``highly 
qualified teacher,'' as it is currently written, unfairly limits what 
CTE can do for our students' academic achievement. That is, with few 
exceptions, teachers must hold a baccalaureate degree in the subject to 
be cross-credited to, in order for that cross-credit to count.
                    approach three: career academies
    Career academies are perhaps the most exciting and successful high 
school reform effort of the past 50 years. And their success in 
retaining students and launching them into positive post-high school 
outcomes is extensively documented by the research.\4\ Career academies 
are defined as an integrated team of academic and CTE teachers. 
Students form cohorts who take at least half of their scheduled classes 
together. Classes revolve around a career theme. Students generally 
participate in job shadows, career conferences, mentoring, and student 
leadership activities in and out of the classroom. Paid summer 
internships help students connect the classroom activities and 
instruction with real-world experiences. While CTE in these academies 
less often lead directly to industry certification, the students are 
deeply immersed in all aspects of a particular industry, and they 
graduate able to pursue a variety of pathways, which most often 
includes a college education. In other words, career academies are 
examples of context and approximate outcome. Academies rely on strong 
and consistent support from advisory boards, and need the support of 
counselors and principals at their school in order to schedule and 
group students to provide a deep experience of the chosen career theme. 
Academies work so well because teachers come together with an emphasis 
of students in common instead of specific subject matter, i.e., 
academies are the original, contemporary small learning community. 
Academies also have the advantage of accommodating heterogeneous 
groupings of students, and data are now being collected on student 
outcomes. Seattle Public Schools has 14 career academies in six high 
schools.\5\ They are in Architecture, Construction & Engineering; 
Biotechnology; Environmental Science; Finance; Global Studies; 
Hospitality & Tourism; Health & Environment; Information Technology; 
Maritime Studies; and Public Service.
---------------------------------------------------------------------------
    \4\ See http://casn.berkeley.edu/clearinghouse.html for links to 
recent published research.
    \5\ At one high school, wall-to-wall small learning communities 
manifest as three career academies, and another is headed in a similar 
direction.
---------------------------------------------------------------------------
                    approach four: the art of craft
    This type of CTE, most frequently found in the Science, Engineering 
& Industry pathway, is the one that has taken the most serious beatings 
in high school reform debates. It is not organized around formal 
industry certification, nor the most common academic standards, and is 
unfortunately taught apart from the mainstream of the high school. It 
has less specific context, and less specific outcomes, which is what 
makes it, like art, so vulnerable in a standards-based educational 
environment. Yet there is a significant minority of students and 
graduates who will tell you that their experiences in just such 
``hobby'' courses were the most important ones in their high school 
experience. That these classes gave them a reason to stay in school and 
not drop out. That their minds were opened to thinking and learning 
through the hand or the heart, in a way that other classes could not 
reach them. That they got started on learning in a way that DID lead to 
industry certification, a gainful career, and/or a college degree. That 
through the explorations in this woodworking, sewing, entrepreneurship, 
photography, or other CTE ``craft'' course, they went through a process 
of self-discovery that was essential to them finding their true and 
successful course in life. We may live to regret the rapid elimination 
of courses that take this approach.
    A full and common grasp of these four approaches to Career & 
Technical Education will equip CTE teachers, administrators, education 
reformers, facilities planners, school board members, community groups, 
students and their families to look at high school reform in a fresh 
and grounded way. It will provide us all with the tools to continue to 
redesign our high schools to become centers of our communities where 
students do not drop out, where graduates have the skills, knowledge 
and direction our country needs in order to create a higher quality of 
living, and a place where students find their passions, their 
direction, and the power to provide value to their own community, their 
own family, their country and the world.
 Prepared Statement of Linda Tieman, RN, MN, FACE, Executive Director, 
                     Washington Center for Nursing
    As the population in Washington State ages, the caregiving 
population is aging too. The ``Nursing Supply and Demand through 2025'' 
study completed by the University of Washington Center for Health 
Workforce Studies under contract from the Washington Center for 
Nursing, indicates that must increase the numbers of RN graduates by 
400/year, every year, from 2010-2025 to mitigate the shortage. The 
average RN in WA is 48.5 years of age, older than the national average 
age. The WA State Department of Labor continues to identify Registered 
Nurse as one of the top 10 professions with significant vacancies and 
continued growth of jobs; currently, they report 5,000 vacancies. 
Supply and demand are the two sides of this equation.
                                 supply
    Our schools of nursing are able to accept 51 percent of the 
qualified applications (actual applicants with duplicate applications 
removed from the count) into their programs. This number is 
approximately 700 individuals who, if accepted, would most likely 
complete the RN program and join our workforce. The limiting factor in 
the supply side of this equation is the lack of qualified faculty to 
teach nursing. Salary is the issue in this limiting factor; community 
college nursing faculty experience up to a 50 percent salary reduction 
if they leave the professional practice world and accept a teaching 
position. Even with adjustments for 9-, 10-, or 12-month contracts, 
this fact is accurate. Most report that their new graduates earn 40 
percent more than they do when they begin working. The workload of 
faculty has been poorly documented but when one adds this to the low 
salary, it's not surprising that Master's- and Ph.D.-prepared nurses 
are not attracted to the educational world. In many cases, a nurse with 
the education to teach must wait until he/she retires from another role 
to begin teaching. While this individual brings important experience to 
their teaching, their ``life'' as an educator is much shorter than if 
he/she had begun teaching earlier in the career. To attract younger, 
appropriately-educated teachers, the compensation must be competitive.
    We know through a recent survey of our nursing programs that 83 
full-time faculty will be retiring by 2010. Forty percent of the Deans 
and Directors of our programs are retiring in the next 2 years. Who 
will replace these educators and educational administrators? This 
salary issue is a serious barrier to our ability to meet the promise to 
Washingtonians that they will receive healthcare when and where they 
need it.
    Our State has not addressed this severe salary differential between 
education and practice, and must do so. A number of States have 
implemented salary adjustments for both public and private nursing 
program faculty. The prolonged wait to be accepted into a nursing 
program discourages talented individuals and drives them to other 
professions. In addition, the inability to be accepted discourages 
incumbent workers and second-careerists. Thus we lose nurses from three 
potential recruitment areas. We have not yet seen the retirement coming 
in the direct care, leadership and educational sectors of nursing, but 
we know that 2010 is the year that the first significant wave of ``baby 
boomers'' will reach 65 and potentially retire. Our timeline is short. 
If we do not address this issue we will begin to see frightening gaps 
in our ability to provide care, to mentor new graduate nurses as they 
make the transition into the profession, and to retain nurses.
    A number of interventions are already in place to address the 
supply issues:

    <bullet> Our nursing schools have increased capacity and graduates 
by 80 percent since 2001.
    <bullet> Partnerships with industry have supported working RN's to 
participate as clinical faculty.
    <bullet> The State's loan repayment program recently amended its 
policy to include educational programs to become nursing faculty as 
eligible for these dollars.
    <bullet> Partnerships between Associate Degree and upper division 
RN programs can be found across the State, expediting the educational 
journey for students.
    <bullet> Our State is a leader in its distance learning 
capabilities (on-line and TV learning) and we can do more.
    <bullet> Coordination of clinical placement sites, which can 
prevent nursing programs from accomplishing their goals, is expanding 
statewide, based on success in the Pierce county-southwest WA Clinical 
Placement consortium.
    <bullet> Expansion and coordination of High Fidelity Simulation to 
enhance education is occurring across the State. The sooner we ensure 
that every program and care-site has access to well-managed simulation 
the better.
    <bullet> A Master Plan for Nursing Education has been under 
development since 2006, and will be delivered to the Department of 
Health in December 2007. Required by a grant to WCN, its goal is to 
assure the health of Washington's residents by having a sufficient 
supply of appropriately educated nurses to care for them; additionally, 
it seeks to be student-friendly, effective, efficient, educationally 
sound, and collaborative with industry. The plan speaks to the faculty 
issues as well. (I am happy to supply either the latest draft or the 
final version when completed).
    <bullet> Because nursing, like all clinical programs, is more 
expensive for a college or university, the methodology for how the 
State allocates funds must be altered. Funding a History student FTE at 
the same level as a nursing FTE makes no sense; the latter requires 
more resources in terms of people, equipment, and time, than the 
former. This old methodology is a barrier to nursing programs.
    <bullet> A program to bring nursing education to the rural areas of 
the State is in process; this is a collaborative effort of the AHEC's, 
WCN, Lower Columbia College, WSHA, the State Board of Community and 
Technical Colleges and several rural organizations. This innovative 
program addresses the dilemmas of place bound individuals who want to 
become RN's but cannot leave their home areas, and the desire of rural 
organizations to have a well-educated workforce that remains in their 
communities.
    <bullet> Several programs are looking at specific underrepresented 
populations' needs for assistance in becoming nurses.
    <bullet> A plan is under way in Pierce County to create a program 
for internationally (formerly ``foreign'') educated RN's who are not 
practicing as RN's to prepare themselves to take the NCLEX and become 
licensed in WA. Once funded and implemented, it can be replicated in 
other areas of the State.
    <bullet> The Governor's Healthcare Disparities Council is 
interested in exploring the application of its' goals and principles to 
expanding a diverse healthcare workforce.
    <bullet> There is a desire to work with DOD to create pathways that 
are effective and educationally sound so that military personnel can 
transition into a civilian educational program to advance their 
education. Work in this area was completed last year by the Nursing 
Care Quality Assurance Commission and interest in this area is high.
    <bullet> WA has been a leader in expanding the role of the Advanced 
Practice Nurses, so that patients can be served by them as their 
primary providers. We have 6.7 percent more ARNP's in WA today than we 
did last year, and our schools are preparing more each year.
                                 demand
    On the opposite side of the scale is the demand for nurses. Again, 
DOL tells us that employers report an increasing need for Registered 
Nurses in most venues for care, and a need for more Licensed Practical 
Nurses (LPN's) in Long Term Care and Home Care. Over 50 percent of our 
nurses work in the 109 Acute Care Hospitals across the State. As 
``acute'' care continues to move into Long Term Care and the Home, the 
need for nurses grows in those areas; concurrently, the patients who 
are in the acute hospitals are extremely ill or have complex surgeries 
that cannot be done in the outpatient setting, and thus require intense 
care. Older patients consume more healthcare resources, often have 
fewer support systems in terms of family, and have the limitations that 
normal aging brings. As our State's population continues to expand, our 
hospitals are seeing increasing numbers of patients even as acute care 
moves to other settings.
    Stabilization of the workforce through improvement of what is 
called the workplace environment is critical, and is in the hands of 
leadership in an organization. Data show us that salary & benefits 
continue not to be the most important issue for nurses but involvement 
in the workplace decisions, a focus on patients first, flexibility in 
scheduling, attention to the needs of aging nurses, access to 
educational advancement, positive MD-RN relationships, support systems 
so that a nurse can do nursing work, appropriate staffing, a nurse 
leader who is at the executive level of the organization to impact 
decisions that affect patient safety and staff satisfaction, and 
recognition are all important. Clearly there are work situations where 
compensation may not be competitive or appropriate for the work done; 
again, it's incumbent on the employer to address those issues.
    Redesigning how care is delivered is an important component of 
retention; patients, care, and knowledge is different than when the 
systems we still use were designed. We need new and different answers 
to the questions of how to ensure that patients in all settings receive 
the right care, from the right person, at the right price.
    According to the UW Center for Health Workforce Studies, 
approximately 85 percent of licensed RN's who are healthy & less than 
69 years of age are working. Retaining these nurses is critical to 
ensuring the health of our citizens.
    One aspect of retention that has just been studied in WA is the 
transition of new graduate RN's from school into their first 
professional roles. This is the most vulnerable time for us to retain 
or lose nurses. Data verify that hospitals in WA that have a planned 
program of transition have a 90 percent retention rate of new graduates 
after 1 year of employment. Because national data report that up to \1/
3\ of new RN graduates report that they plan to leave nursing within a 
few years, we must intervene to retain these nurses. Nursing is unique 
in its historical thrusting of educated but inexperienced nurses into 
positions of great responsibility with little support or transition. 
Other professions approach this period of transition differently; 
teachers complete a student teaching period, new accountants start at 
firms ``crunching'' numbers, engineers have at least a year of 
learning, physicians complete residencies. The complexity of patient 
needs, the expansion of medications, technology, and information demand 
that we ensure that every new graduate have an effective transition 
from student to novice professional. Recently a nurse told me that she 
cares for ``x'' patients each shift and adds ``technology'' as an 
additional patient needing her time and energy. It's no surprise that 
dissatisfaction is high in this new graduate workgroup if minimal 
acknowledgement of what is needed exists in an organization.
    Traditionally, Home Care and Public Health have not hired new 
graduates because those roles require high levels of independence, 
critical judgments, knowledge of community health and population 
management. Given that the average Public Health Nurse is >50, and that 
our Public Health Department budgets preclude their paying salaries 
that are competitive, there is new thinking about whether a new RN 
graduate could be successful in this area. Corollary to this is the 
question about how to help nurses who have been in the acute hospital 
make the transition into either Home Care or Public Health. My recent 
meeting with several directors of large Home Care agencies revolved 
around the same issues, though salaries are not so much on an issue. 
Lack of funding to study, design, implement and evaluate transition 
programs into these areas, where more and more patients now receive 
care, is a barrier for them.
    We all know the complexity of these issues and share the worries 
about whether we're doing enough, well enough, quickly enough. WCN was 
created to ensure that we have enough nurses with the appropriate 
education to care for WA's citizens both now and in the future. All of 
the work that has been done since its creation is in service to that 
mission.
    I welcome the opportunity to speak with any/all of you about the 
information submitted here, and hope that this has been helpful to you.
                                 ______
                                 
            Manufacturing Industrial Council (MIC),
                                               Seattle, WA,
                                                 November 21, 2007.
Hon. Patty Murray,
U.S. Senator,
Chairman, Subcommittee on Employment and Workplace Safety,
Russell Senate Office Building,
Washington, DC. 20510.
    Dear Senator Murray: Thank you for the opportunity to participate 
in the November 27, 2007 field hearing of the HELP subcommittee.
    The Manufacturing Industrial Council is a non-profit advocacy group 
for industrial businesses in greater Seattle. I am a former co-chair of 
the MIC. In my professional life, I am the vice president of a 101-
year-old steel fabricating firm in Seattle, Seidelhuber Ironworks. Over 
the past decade and a half, I have also served as a volunteer member of 
the King County Workforce Development Council, the King County Child 
and Family Commission, the advisory board for the King County Youth 
Center (a juvenile detention facility) and the advisory board for 
``ArtWorks,'' a non-profit program that uses art to help develop 
stronger self confidence and career directions for disadvantaged young 
people.
    This letter and my testimony to the committee reflect both the 
collective view of the MIC and my personal views and experiences 
involving youth programs and the industrial business sector.
    In my experience, too many people and agencies in the public sector 
dismiss ``industry'' as a relic of the past while they rush to identify 
and embrace the ``next big thing.'' In fact, companies like mine and 
others that are represented by the MIC are part of a growing, dynamic 
economic force that continues to provide the economic and social 
bedrock of our Nation and many pillars of the so-called ``new 
economy.'' At the same time, industry continues to provide good job and 
career opportunities on an extremely large scale. Contrary to common 
misconceptions, many industrial sectors are also suffering from a 
shortage of skilled workers and professionals that appears to be 
growing more and more severe.
    You and your staff have correctly identified the enormous 
opportunity that exists to better link these career and job 
opportunities with young people who need to gain a toe hold in the 
workforce and find their place in the global economy.
    Are these career opportunities good opportunities for every one? 
No. But for young people with the right aptitudes and attitudes, these 
opportunities often prove to be literally transformative, empowering 
them to lead productive, rewarding lives in which they are capable of 
supporting themselves and their loved ones. There's a good reason 
people call these ``family-wage'' jobs and I see the proof every day at 
Seidelhuber Ironworks as I watch our employees come to work.
    The extent of the industrial labor shortage is reflected in a 
survey of job vacancies that is conducted on an ongoing basis by the 
Washington State Department of Employment Security. The survey 
conducted last spring which showed industrial employers with openings 
for:

    <bullet> 4,362 employees in construction;
    <bullet> 6,595 employees in manufacturing;
    <bullet> 2,527 employees in wholesale distribution; and
    <bullet> 2,135 workers in transportation.

    These numbers added up to 15,619 openings. Among the four business 
groups with the most job openings, the industrial sector placed second 
to health care (17,000), and ahead of retail (10,000) or restaurants 
and hotels, (8,000).
    In my experience, public sector workforce and education agencies 
tend to divide the industrial sector into its individual components, 
and seldom look at them in the aggregate. This is a huge mistake that 
blinds people to the full range and size of the available industrial 
career opportunities.
    Industrial career opportunities share many key characteristics that 
are highly relevant to your focus on career paths, upward mobility and 
the needs of employers and young people.
    All industrial sectors are dominated by activities and working 
environments that tend to appeal to people who share similar aptitudes 
and attitudes toward physical work and challenges. As stated earlier, 
these environments are not suited to every one, but they often work 
best for people who may struggle to find success in retail or service 
sectors.
    All industrial sectors also provide a large number of entry-level 
positions that are highly accessible to people who may not find 
comparable wages or benefits in other employment sectors. Each also 
tends to offer career pathways that can lead to excellent pay and other 
rewards for individuals who are willing and able to obtain higher 
skills and more education.
    Employers in these sectors also tend to be forgiving. At most 
companies, your ``record'' starts with your first day on the job and if 
you can put in an honest day's work every day, that's more important 
than any poor life choices you may have made in the past.
    These industrial sectors also tend to be very healthy, contrary to 
popular misconceptions. For instance, our company is part of a business 
cluster called the metal trades. This cluster includes the metal 
fabricators and machine manufacturers who make the structural parts, 
gears, engines, pumps, and contraptions that drive modern industry.
    Five years ago, many ``experts'' considered metal trades doomed to 
economic obsolescence due to inexorable changes in the global economy. 
But, instead of going away, the metal trades enjoyed a remarkable boom. 
According to State B&O tax records, metal trade companies in Washington 
enjoyed 96 percent revenue growth over the past 5 years, reaching 
collective revenues of $9.2 billion, and 15 percent job growth, to more 
than 32,000 employees.
    That was significantly faster revenue and job growth than the 
economy as a whole (39 percent for revenue and 12 percent for jobs). As 
a result, the metal trades cluster is now a bigger sector in Washington 
than many other, much more visible sectors. For example, companies 
engaged in real estate generated $8.9 billion in revenues; 
telecommunications, $8.8 billion; insurance, $6.3 billion, and private 
sector legal services, $4 billion. Metal trades revenues and jobs even 
grew faster than companies engaged in computer services, which 
collectively recorded 65 percent revenue growth and 8 percent job 
growth.
    While this success was notable, it was not truly exceptional. Over 
the past 5 years, construction revenues were up 56 percent to nearly 
$42 billion, and jobs grew 34 percent. Other industrial sectors also 
grew faster than the overall economy, including boat building, aircraft 
and aircraft parts manufacturing, wood products and furniture making.
    Good economic development policies build on a region's strengths. 
Our workforce and youth programs should do the same. One of our 
greatest economic strengths is industry. We applaud you for conducting 
this hearing and urge you to provide the leadership that this issue so 
badly needs. We look forward to supporting your efforts in the future.
            Sincerely,
                              Terry Seaman, Vice-President,
                                             Seidelhuber Ironworks.

    [Whereupon, at 11:28 a.m., the hearing was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
